No. 20-441

In the

Supreme Court
of the United States
______________
Minnesota Sands, LLC,
Petitioner,
vs.
County of Winona, Minnesota,
Respondent.
______________

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF MINNESOTA

______________

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
______________

Jay T. Squires
Elizabeth J. Vieira
Counsel of Record
Kristin C. Nierengarten
RUPP, ANDERSON, SQUIRES &
WALDSPURGER, P.A.
333 South Seventh Street, Suite 2800
Minneapolis, MN 55402
(612) 436-4300
jay.squires@raswlaw.com
Attorneys for Respondent
2020 - Bachman Legal Printing n (612) 339-9518 n 1-800-715-3582 n Fax (612) 337-8053

QUESTIONS PRESENTED
1.
Whether the Minnesota Supreme Court
correctly held that the dormant Commerce Clause
does not prohibit a local government from adopting a
land-use regulation that differentiates between
different materials and different extractive processes
and restricts only the extractive process that poses
far greater risks to the land and surrounding
environment.
2.
Whether the Minnesota Supreme Court
correctly held that under Minnesota law and the
terms of the specific leases here, which were acquired
by Minnesota Sands during a moratorium and
contingent on events that never came to pass,
Minnesota Sands has no property interest in the
relevant mineral estates because it has not fulfilled
the conditions precedent that the leases impose.

i

TABLE OF CONTENTS

QUESTIONS PRESENTED .................................. i
TABLE OF AUTHORITIES ................................. iv
INTRODUCTION .................................................. 1
STATEMENT OF THE CASE .............................. 3
I. Factual Background ........................................ 3
II. Winona County’s Regulation of Industrial
Silica-Sand Mining........................................... 5
III. The Present Dispute ........................................ 8
IV. The Minnesota Supreme Court’s Decision.
............................................................................ 10
REASONS FOR DENYING THE PETITION ... 12
I.

This Court Should Deny Certiorari On
Minnesota Sands’ Splitless, Factbound,
And Meritless Dormant Commerce Clause
Claim .......................................................... 13
A.

B.
C.
D.

Minnesota Sands’ Dormant Commerce
Clause Claim Rests On Factual
Assertions That The Courts Below
Rejected. ................................................ 14
Minnesota Sands’ Dormant Commerce
Clause Claim Is Meritless. ................... 17
Minnesota Sands’ Dormant Commerce
Clause Arguments Are Not Dispositive.
……………………………………………..24
Minnesota Sands’ Assertion That
Review Is Needed To Prevent Economic
Conflict Is Baseless. ............................. 25

II. This Court Should Deny Certiorari On
Minnesota Sands’ Splitless, Factbound,
And Meritless Takings Claim. .................... 27
ii

A.

B.

The Decision Below Held Only That The
Specific Terms Of Minnesota Sands’
Leases Gave It No Property Interest
Here, Not That Permitting
Requirements Eliminate Otherwise
Protectable Property Interests. ........... 27
The Decision Below Does Not Conflict
With Decisions From Other Courts Or
With This Court’s Precedent. .............. 31

CONCLUSION .................................................... 36
APPENDIX
Board of County Commissioners,
Procedural History, Findings of Fact,
Conclusions, and Adoption of Zoning
Ordinance Amendment, November 22, 2016
…………………………………… App. 1

iii

TABLE OF AUTHORITIES
Cases
Alaska v. Arctic Maid, 366 U.S. 199 (1961) .............. 11
Bacchus Imports, Ltd. v. Dias, 468 U.S. 263 (1984) . 15
Bd. of Regents of State Colleges v. Roth, 408 U.S. 564
(1972) ...................................................................... 20
Brimmer v. Rebman, 138 U.S. 78 (1891) .................. 15
B-Y Ranches v. Tooele County, 91 P.3d 841 (Utah
App. 2004) .............................................................. 21
Camps Newfound/Owatonna, Inc. v. Town of
Harrison, 520 U.S. 564 (1997) ............................... 12
City of Philadelphia v. New Jersey, 437 U.S. 617
(1978) ................................................................ 14, 15
Dean Milk Co. v. City of Madison, 340 U.S. 349 (1951)
................................................................................ 15
Foster-Fountain Packing Co. v. Haydel, 278 U.S. 1
(1928) ...................................................................... 13
Ft. Gratiot Sanitary Landfill, Inc. v. Michigan Dep’t
of Nat. Res., 504 U.S. 353 (1992) ........................... 15
Gen. Motors Corp. v. Tracy, 519 U.S. 278 (1997) 11, 15
Hodel v. Va. Surface Min. & Reclamation Ass’n, Inc.,
452 U.S. 264 (1981) ................................................ 22
John R. Sand & Gravel v. United States, 62 Fed. Cl.
556 (2004) ............................................................... 21
Koontz v. St. Johns River Water Mgmt. Dist., 570 U.S.
595 (2013) ............................................................... 22
Lucas v. S.C. Coastal Council, 505 U.S. 1003 (1992) 20
Ohio ex rel. R.T.G., Inc. v. State, 780 N.E.2d 998
(Ohio 2002) ............................................................. 21
Pa. Coal Co. v. Mahon, 260 U.S. 393 (1922) ............. 22
PBS Coals, Inc. v. Dep’t of Transp., 206 A.3d 1201
(Pa. Cmwlth. Ct.) ................................................... 21
Pennsylvania v. West Virginia, 262 U.S. 553 (1923) 13
iv

Seven Up Pete Joint Venture v. Montana, 2002 WL
34447228 (D. Mont. Dec. 9, 2002) ......................... 21
Seven Up Pete Venture v. State, 114 P.3d 1009 (Mont.
2005) ....................................................................... 21
State v. Melchert-Dinkel, 844 N.W.2d 13 (Minn. 2014)
................................................................................ 16
Suitum v. Tahoe Reg’l Planning Agency, 520 U.S. 725
(1997) ...................................................................... 22
Tenn. Wine & Spirits Ass’n v. Thomas, 139 S. Ct.
2449 (2019) ............................................................. 12
United Haulers Ass’n, Inc. v. Oneida-Herkimer Solid
Waste Mgmt. Auth., 550 U.S. 330 (2007) .............. 14
United Nuclear Corp. v. United States, 912 F.2d 1432
(Fed. Cir. 1990) ...................................................... 20
United States v. Riverside Bayview Homes, Inc., 474
U.S. 121 (1985) ....................................................... 21
Washburn v Gregory Co., 147 N.W. 706 (Minn. 1914)
................................................................................ 22
Webb’s Fabulous Pharms., Inc. v. Beckwith, 449 U.S.
115 (1980) ............................................................... 20
West v. Kansas Natural Gas Co., 221 U.S. 229 (1911)
................................................................................ 13
Statutes
Minn. Stat. §116C.99(1)(d) .......................................... 7

v

INTRODUCTION
Minnesota Sands’ petition for certiorari
presents two questions, each of which mischaracterizes
the decision below. In reality, the decision below is
factbound, implicates no division of authority, and is
entirely correct. The petition should be denied.
The Minnesota Supreme Court’s decision below
upheld a land-use regulation enacted by the Winona
County Board of Commissioners that prohibits
mining industrial silica sand in Winona County in
ways that pose grave environmental risks, but
permits mining construction sand in a manner and
scale that traditionally has not created serious risks
to the surrounding land and environment. Minnesota
Sands challenges that decision on two grounds,
claiming the ordinance violates the dormant
Commerce Clause and works an unconstitutional
taking. Neither challenge warrants this Court’s
review.
First, Minnesota Sands asks this Court to
decide whether a local government violates the
dormant Commerce Clause if it prohibits mining a
certain mineral for industrial purposes, but permits
mining “the same mineral in the same way” for local
construction. Pet.i. But that question does not even
purport to implicate a split among lower court
authority and depends on factual (mis)characterizations
that the courts below squarely rejected. In particular,
Minnesota Sands’ first question presented depends on
its repeated factual assertion that mining for
industrial silica sand and mining for construction
1

sand involve mining “the same mineral in the same
way.” The courts below rejected that assertion twice
over, finding that industrial silica sand and
construction sand are neither the same mineral nor
mined in the same way. As a result, Minnesota
Sands’ first question is not actually presented by the
decision below, and its ongoing disagreement with the
Minnesota courts over the underlying facts does not
warrant this Court’s review. Regardless, the
Minnesota Supreme Court’s decision faithfully
applied this Court’s precedent, and its alternative
holding that Minnesota Sands would not be entitled
to relief in any event makes this case a particularly
unattractive candidate for certiorari.
Second, Minnesota Sands asks this Court to
decide whether the Minnesota Supreme Court erred
by holding that “permitting requirements eliminate
the existence of a federally protected property
interest” for takings purposes. Pet.i. But the
Minnesota Supreme Court held nothing of the kind.
Instead, it held only that under Minnesota law and
the terms of the particular leases involved here,
which were highly contingent, Minnesota Sands
never satisfied the “specific conditions that govern
[its] rights to use and possess the leased premises,”
thus as a contractual matter Minnesota Sands never
acquired the rights that it claims were taken.
Pet.App.36. That fact-specific state-law holding does
not conflict with any other lower-court decision, does
not conflict with this Court’s precedent, and poses no
threat to property rights more broadly. This Court
should deny certiorari.

2

STATEMENT OF THE CASE
I.

Factual Background

Winona County is located in southeastern
Minnesota, directly across the Mississippi River from
Wisconsin. The County is part of a geologically
unique and ecologically sensitive karst region,
defined by large interconnected networks of
underground caverns, sinkholes, springs, and
streams. Pet.App.5. These features make the area
particularly vulnerable to groundwater pollution,
which can spread easily through the karst region’s
porous underground structure.
The County contains significant underground
deposits of silica sand, a hard-mineral sand that is
used for a variety of purposes. Those purposes
include manufacturing glass, abrasive materials,
shingles, countertops, livestock bedding, and sand
traps on golf courses. Pet.App.5. They also include
various uses in the construction industry, including
in buildings and road paving. Pet.App.5.
In the last twenty years, silica sand has also
been used in the extraction process for drilling oil and
natural gas known as hydraulic fracturing, or
“fracking.” Pet.App.4. As a hard-mineral sand, silica
sand can be used in fracking to prop open geological
fractures and allow oil and gas to seep out. This use
has led to boom-and-bust cycles in the demand for
silica sand, with sudden increases in demand during
the fracking boom followed by decreases during
subsequent industry downturns. Pet.App.4, 42.
3

Before silica sand can be used for fracking, it
must be processed to meet industry standards, which
is generally done at the extraction site. Pet.App.4.
The typical method involves washing and filtering
raw sand in unlined sedimentation ponds located at
the mines. Pet.App.4. This process requires large
volumes of water—up to 6,000 gallons per minute—
and chemicals called flocculants used to remove the
unwanted sediments. Pet.App.4. The leftover
mixture of unwanted sediments, water, and
flocculants is then returned to the mines without
treatment, even though some flocculants are known
to be hazardous to human health, including at least
one known neurotoxin and probable carcinogen.
Pet.App.4-5 & n.1; Pet.App.129. Industrial mining of
silica sand is also associated with numerous adverse
environmental impacts, including effects on air and
water quality and the natural landscape, as well as
negative effects on tourism, noise levels, traffic,
health, and the local economy. See Pet.App.124-25.
Contrary to what Minnesota Sands suggests
throughout its brief, there are significant differences
between industrial silica-sand mining for uses like
fracking as compared to mining for construction
purposes. To begin with, as the Minnesota Supreme
Court explained, Minnesota Sands’ claim that the
underlying sand is “the same” is “not supported by
the record.” Pet.App.27 n.14. On the contrary, a
wider variety of sand can be used for construction
purposes, so “at least some of the time, construction
minerals are not the kind of raw silica sand that is
needed to produce processed frac sand.” Pet.App.27
n.14; see Pet.App.127-28 (noting U.S. Geological
Survey’s distinction between industrial and
construction sand).
4

More important, there are “major differences
between the operations for mining construction
materials versus mining industrial materials” that go
both to the scale and to the nature of the extractive
process. Pet.App.128. Industrial mining operations
“involve larger mines in operation for long periods of
time that use blasting, underground mining
techniques and involve chemical treatment of the
mined sand,” while construction mining operations
“tend to involve small mines that engage in only
periodic mining activities, which do not involve
underground mining, blasting, or chemical
processing.” Pet.App.128-29. And unlike
construction mining, industrial mining of silica sand
(especially for fracking purposes) is exposed to
unpredictable boom-and-bust cycles, which can
exacerbate the risks to the local environment by
producing unmet financial and environmental
obligations. Pet.App.130-31. Industrial mining
operations also require more water, increasing the
risk of groundwater pollution. Pet.App.128-130. The
latter concern is especially serious in Winona County,
since the sites for “specifically industrial silica sand
mining” are located primarily in the County’s
ecologically sensitive karst formations. Pet.App.12930.
II.

Winona County’s Regulation of
Industrial Silica-Sand Mining

In September 2011, Winona County received
three conditional-use permit applications seeking
permission to engage in industrial silica-sand mining
in the County. Pet.App.6. In January 2012, the
County Board of Commissioners denied those
5

applications and enacted a three-month moratorium
on silica-sand mining to allow the County to study
the potential impacts on the community and the
environment of industrial mining activities.
Pet.App.6. The Board ultimately adopted additional
land-use regulations for silica-sand mining, which
included requiring a conditional-use permit for all
extraction pits and land alteration operations.
Pet.App.6-7.
In 2016, the Board faced renewed
conversations about the potential effects of industrial
silica-sand mining. The Board referred the issue to
the Winona County Planning Commission, which
held multiple public hearings and received hundreds
of oral and written comments (amounting to
thousands of pages of information) supporting and
opposing regulation of industrial mineral mining,
including comments from County employees, industry
representatives, environmental organizations,
officials from other counties where industrial silicasand mining is occurring, and the public at large.
Pet.App.122-25. The vast majority of those comments
supported some form of additional regulation on any
kind of mining operations planned for Winona
County. Pet.App.124. The Planning Commission also
received a report from the Minnesota Environmental
Quality Board on the impact of industrial mining on
Winona County, based on studies of industrial mining
operations in nearby counties and other information
from state and local agencies, geologists, doctors,
organizations that support industrial mining, and
environmental scientists. Pet.App.125. The County
then held another public hearing on the issue, at
which over 100 people spoke and over 150 written
comments were submitted. Pet.App.125. Based on
6

that eight-month process of review, comment, and
deliberation, the Board adopted the amended
ordinance challenged here. Pet.App.8-9, 122-27.
That ordinance, like other authorities,
distinguishes between mining for industrial minerals
and mining for construction minerals. Pet.App.9-10;
see Pet.App.128 (noting the Minnesota Department of
Natural Resources’ distinction between industrial
and construction mining); U.S. Office of Mgmt. &
Budget, North American Industry Classification
System at 112 (2017) (distinguishing Construction
Sand and Gravel Mining from Industrial Sand
Mining), available at https://bit.ly/2Ky4Xkw. The
ordinance permits mining for “construction minerals”
with a conditional-use permit, but prohibits mining
for “industrial minerals” in the County except for
operations that existed when the ordinance was
passed. Pet.App.9-11, 200-01. The ordinance defines
“industrial minerals” as “naturally existing high
quartz level stone, silica sand, quartz, graphite,
diamonds, gemstones, kaolin, and other similar
minerals used in industrial applications, but
excluding construction minerals.” Pet.App.9, 195. It
also adopts the definition in Minnesota Statues
§116C.99(1)(d) of “silica sand” as “well-rounded, sandsized grains of quartz (silicon dioxide), with very little
impurities in terms of other minerals,” which the
statute notes “is commercially valuable for use in the
hydraulic fracturing of shale.” Pet.App.10, 196.
Conversely, the ordinance defines “construction
minerals” as “natural common rock, stone, aggregate,
gravel and sand that is produced and used for local
construction purposes,” including a variety of listed
examples. Pet.App.10, 195.
7

The Board’s findings explain in detail the
Board’s rationale for the challenged ordinance,
including the distinction between industrial-mineral
operations and construction-mineral operations. As
they show, the Board’s primary concerns were to
prevent the negative impact that industrial silicasand mining would have on air and water quality,
traffic and road safety, and natural landscapes in the
County, as well as the health and general welfare of
the County’s citizens. App.6-7, 25-26; see
Pet.App.199-200. The Board also particularly
emphasized the unique geologic conditions in the
County, and the importance of protecting the
County’s groundwater in light of those conditions.
App. 21-22, 34-35; see Pet.App.200. By contrast,
nothing in the record indicates that the Board acted
based on any animus against out-of-state fracking or
any form of local economic protectionism. On the
contrary, “none of the comments that were critical of
the fracking industry were credited by the Board in
its findings adopting the amendment.” Pet.App.25.
III.

The Present Dispute

In February 2012 – during the County
moratorium on any silica-sand mining – Minnesota
Sands acquired four leases for silica-sand mining in
the County. Pet.App.6. It acquired a fifth such lease
in November 2015. Pet.App.6. While Minnesota
Sands portrays these as valuable, unconditional
leases rendered worthless by regulation, the reality is
quite different. Consistent with the reality that four
of the five leases were obtained by Minnesota Sands
while a moratorium was imposed, the leases involved
almost no immediate expense and were highly
contingent. Each lease provides that for a one-time
8

payment of $1000 to the landowner, plus royalties on
any sand eventually removed from the premises,
Minnesota Sands obtained the right to use and
possess the premises “solely to mine Frac Sand [i.e.,
silica sand] to be used … for commercial purposes.”
Pet.App.6-7. Minnesota Sands’ rights and obligations
under the leases are expressly “conditioned
upon…obtaining any zoning or other governmental
approvals” required to engage in silica sand mining.
Pet.App.7; see Pet.App.36-37 (explaining that under
the leases, Minnesota Sands had “no right to use or
possess the land until it was able to engage in silica
sand mining”).
In August 2012, Minnesota Sands sought
conditional-use permits for two sites in Winona
County. Pet.App.7. However, the silica sand market
crashed due to a fracking downturn, and Minnesota
Sands abandoned its pursuit of permits and never
completed the required environmental review
process. Pet.App.7. Minnesota Sands never sought
permits or environmental review to mine any of its
other leases in Winona County, and indeed took no
further action at all for more than four years.
Pet.App.7-8.
In March 2017, a few months after the Board
passed its amended ordinance prohibiting industrialminerals mining in Winona County, Minnesota Sands
sued the County in Minnesota state court, claiming
inter alia that the ordinance violated the dormant
Commerce Clause and was an unconstitutional
taking. Pet.App.11. In a detailed opinion, the trial
court rejected all of Minnesota Sands’ claims and
granted summary judgment for the County.
9

Pet.App.120-46. The Minnesota Court of Appeals
affirmed. Pet.App.69-119.
IV.

The Minnesota Supreme Court’s
Decision

The Minnesota Supreme Court likewise
affirmed. On Minnesota Sands’ dormant Commerce
Clause claim, the court rejected the argument that
the ordinance facially discriminated against out-ofstate interests by allowing mining for construction
minerals for “local construction purposes,” explaining
that the term “local” did not limit permissible mineral
uses to in-state construction and that the ordinance
made no express distinction between in-state and outof-state interests. Pet.App.20-23. Even if the term
“local” were discriminatory, the court held, the
ordinance should be cured by invalidating only that
word—allowing mining for any “construction
purposes,” but continuing to prohibit the industrial
mining that Minnesota Sands wants to conduct.
Pet.App.23-24.
The Minnesota Supreme Court also found the
ordinance had no discriminatory purpose, explaining
that Minnesota Sands had “not pointed to any
concrete evidence” to support its argument that the
Board acted out of anti-fracking animus rather than
the legitimate environmental, economic, safety, and
welfare concerns that the Board detailed.
Pet.App.25. The court likewise found no
discriminatory effect, explaining that the ordinance
did not impermissibly favor in-state economic
interests over out-of-state interests, and instead
applied equally to all industrial-mineral mining
operations and their in-state and out-of-state
10

consumers. Pet.App.25-29. The court specifically
rejected the dissent’s claim that the ordinance was
discriminatory because construction minerals and
industrial minerals are “the same sand,” finding that
claim “not supported by the ordinance or the record.”
Pet.App.27 n.14.
The Minnesota Supreme Court also rejected
Minnesota Sands’ takings claim, agreeing with the
trial court and the Minnesota Court of Appeals that,
as a matter of state law, Minnesota Sands had not
yet acquired any concrete property interest under its
leases. Pet.App.30-44. As the court explained, the
property interests (if any) belonging to a lessee
“depend upon the terms of the lease.” Pet.App.35.
Looking specifically at the terms of Minnesota Sands’
leases, the court held that “the essential terms of
these leases are subject to specific conditions that
govern Minnesota Sands’ rights,” and in particular
that “Minnesota Sands had no right to use or possess
the land until it was able to engage in silica sand
mining.” Pet.App.36-37. “Until that condition was
met, the leases reserved the rights to use and possess
the premises to the lessors in absolute terms.”
Pet.App.37. Because Minnesota Sands never
satisfied that condition by obtaining the necessary
permission to begin mining, “the conditions precedent
to acquiring possession and control under any of the
leases” were never met, and so Minnesota Sands
“does not have a fully-fledged leasehold interest
under Minnesota law.” Pet.App.38. Instead,
Minnesota Sands “at most” held “expectancy interests
that are too speculative to support a takings claim.”
Pet.App.38.
11

REASONS FOR DENYING THE PETITION
Neither of Minnesota Sands’ questions
presented warrants this Court’s review. As to its first
question presented, regarding the dormant
Commerce Clause, Minnesota Sands does not claim
that the decision below conflicts with the decisions of
any other lower court; instead, it asserts only that the
Minnesota Supreme Court misapplied this Court’s
precedent. Pet.16-23. That is precisely the kind of
purported “misapplication of a properly stated rule of
law” that does not warrant certiorari. S. Ct. R.10.
Still worse, Minnesota Sands’ question presented
depends on its factual assertions that industrial
silica-sand mining and construction sand mining
involve “mining the same mineral in the same way,”
Pet.i—assertions that the courts below rejected.
Pet.App.27 n.14, 78-80, 122-31, 141. Minnesota
Sands’ factual dispute with the Minnesota courts
does not warrant this Court’s review. The decision
below is fully consistent with this Court’s precedent,
and the Minnesota Supreme Court’s alternative
holding that Minnesota Sands cannot obtain the
relief it seeks in any event makes this case an
exceptionally poor candidate for further review.
Finally, nothing supports Minnesota Sands’
exaggerated assertion that the decision below will
lead to a flood of politically motivated land-use
restrictions, contra Pet.24-27—especially when the
record is clear that the restriction here was not
adopted out of political animus, see Pet.App.25, 12231. The absence of any amicus support for Minnesota
Sands’ petition underscores the point; after all, if the
decision below really were a grave threat to the
fracking industry (or any other industry), one would
12

expect that at least some amici would have appeared
to urge further review.
Minnesota Sands’ second question presented,
regarding its takings claim, fares no better. That
question rests on a profound mischaracterization of
the decision below, asserting the Minnesota Supreme
Court held that local permitting requirements
“eliminate the existence of a federally protected
property interest unless and until the permits are
granted.” Pet.i. In fact, the Minnesota Supreme
Court held nothing of the kind, and indeed
specifically rejected that view. Instead, the court
held only that under the terms of the particular
leases here and under Minnesota law, Minnesota
Sands never acquired the mineral rights that it now
claims were taken, because it never fulfilled the
contractual conditions precedent that the leases
impose. That narrow decision does not implicate any
conflict in the lower courts, does not contravene this
Court’s precedent, and does not warrant further
review. Certiorari should be denied.
I.

This Court Should Deny Certiorari On
Minnesota Sands’ Splitless, Factbound,
And Meritless Dormant Commerce Clause
Claim.

Minnesota Sands’ first question presented asks
this Court to review a splitless question, based on
factual assertions that the courts below rejected, and
to overturn a decision that faithfully applied this
Court’s precedent, on an issue that is not outcomedeterminative. It comes nowhere near warranting
this Court’s attention.
13

A. Minnesota Sands’ Dormant Commerce
Clause Claim Rests On Factual Assertions
That The Courts Below Rejected.
Minnesota Sands’ first question presented asks
whether a local government violates the dormant
Commerce Clause if it generally prohibits mining a
certain mineral, but permits “mining the same
mineral in the same way” for certain local uses. Pet.i.
That question, and Minnesota Sands’ entire dormant
Commerce Clause claim, rests on two factual
assertions that the courts below rejected: that
industrial silica sand and construction sand are “the
same mineral,” and that they are mined in “the same
way.”
First, Minnesota Sands repeatedly asserts that
the ordinance here prohibits mining silica sand for
fracking and other industrial purposes, but allows
mining “the very same sand” for local construction
purposes. Pet.16; see Pet.1 (“the very same sand”),
Pet.11 (“the very same sand”), Pet.12 (“the same
sand”), Pet.22 (“the very same sand”), Pet.23 (“the
same sand”). That factual assertion—that industrial
silica sand and construction sand are “the very
same”—is critical to Minnesota Sands’ dormant
Commerce Clause argument, as Minnesota Sands
does not try to argue that the ordinance here violates
the dormant Commerce Clause by prohibiting mining
for some minerals (such as diamonds and kaolin)
while allowing mining for others (such as natural
common rock and gravel). See Pet.App.9-10. 1
That is for good reason, as this Court has repeatedly
held that the dormant Commerce Clause does not prohibit
states and local governments from discriminating among
1

14

That critical factual assertion—that industrial
silica sand and construction sand are identical—was
squarely rejected by the Minnesota Supreme Court,
which dismissed the idea that the two “are in reality
‘the same sand’” as “not supported by the ordinance
or the record.” Pet.App.27 n.14. Indeed, as the
Minnesota Supreme Court recognized, a wider
variety of sand can be used for construction purposes
and Minnesota Sands’ own expert “candidly
admit[ted] that the two are not always the same,”
recognizing that “at least some of the time,”
construction sand is “not the kind of raw silica sand
that is needed to produce processed frac sand.”
Pet.App.27 n.14; see Pet.App.80 (“The ordinance’s
differentiation between silica sand—an industrial
mineral—and other types of sand—construction
minerals—is consistent with the record.”);
Pet.App.128 (noting the U.S. Geological Survey’s
distinction between industrial sand and construction
sand). Nothing in the dormant Commerce Clause
prohibits local governments from treating different
minerals differently, and Minnesota Sands makes no
attempt to argue otherwise. The question of whether
a local government can impose varying restrictions on
mining “the same mineral,” Pet.i., simply is not
presented here.
Second, Minnesota Sands is not only wrong to
say that industrial silica sand and construction sand
are “the same mineral,” but also wrong to claim they
entities that are not “substantially similar” because they operate
in “arguably distinct markets.” Gen. Motors Corp. v. Tracy, 519
U.S. 278, 298, 300 (1997); see, e.g., Alaska v. Arctic Maid, 366
U.S. 199 (1961).

15

are mined in “the same way.” Pet.i.; see, e.g., Pet.1, 8.
On the contrary, the record below shows (and the
courts below recognized) that there are “major
differences between the operations for mining
construction materials versus mining industrial
materials,” with the former generally involving small
mines, gentler extraction techniques, and only
periodic mining, while the latter involves larger
mines that use blasting, underground mining
techniques, and chemical processing. Pet.App.12829; see Pet.App.27 n.14 (noting the “sensible”
distinction between industrial and construction
mining given the risk of groundwater pollution from
chemical processing). Industrial mining is also far
likelier to strain the environment, local resources,
and infrastructure, Pet.App.128-30, and create
negative economic and environmental effects on the
surrounding community from boom-and-bust mining
cycles, Pet.App.130-31. The Board properly took
those facts into account in regulating the two kinds of
mining differently. See Pet.App.128-31, 198-200.
The fact that Minnesota Sands’ expert disagrees with
the Board on whether industrial mining and
construction mining differ, see Pet.8 (citing
Pet.App.165, 170), is hardly a license for Minnesota
Sands to ignore the clear facts in the record, let alone
a reason for this Court to grant review. 2

Minnesota Sands is equally wrong to suggest that the
ordinance allows silica sand to be mined for “all uses that are
common locally” but not uses that occur “only in other States.”
Pet.i. As the record makes clear, silica sand has numerous
industrial uses in Minnesota, including glassmaking,
countertops, shingles, and other manufacturing. Pet.App.5.
The ordinance prohibits mining silica sand in Winona County
for all of those local uses.
2

16

In short, Minnesota Sands’ purported question
presented—whether a county can prohibit mining a
mineral for out-of-state uses but permit “mining the
same mineral in the same way” for local uses, Pet.i—
is not actually presented here. That question, and
Minnesota Sands’ entire dormant Commerce Clause
claim, depends on factual assertions that the courts
below rejected. Even if Minnesota Sands had some
basis for challenging those factual issues (and it does
not), that factbound dispute would hardly warrant
this Court’s review. That alone is sufficient reason to
deny certiorari on the first question presented.
B. Minnesota Sands’ Dormant Commerce
Clause Claim Is Meritless.
Minnesota Sands’ dormant Commerce Clause
claim fails not only on the facts, but on the law. That
claim relies on a “peculiar” doctrine that “cannot be
found in the text of any constitutional provision but is
(at best) an implication from one.” Tenn. Wine &
Spirits Ass’n v. Thomas, 139 S. Ct. 2449, 2477 (2019)
(Gorsuch, J., joined by Thomas, J., dissenting); see
Camps Newfound/Owatonna, Inc. v. Town of
Harrison, 520 U.S. 564, 610 (1997) (Thomas, J.,
joined by Rehnquist, C.J., and Scalia, J., dissenting)
(“The negative Commerce Clause has no basis in the
text of the Constitution, makes little sense, and has
proved virtually unworkable in application.”).
Minnesota Sands then stretches that doctrine far
beyond its existing bounds, seeking to use it to strike
down a local land-use regulation (a step that this
Court has never taken) even though that regulation
implicates the most classic concerns of local
government (concerns about the extraction of
resources and the effect on the surrounding
17

environment) and does not discriminate against
interstate commerce on its face, in its purpose, or in
effect. The Minnesota Supreme Court correctly
rejected Minnesota Sands’ dormant Commerce
Clause claim.
1.

The ordinance is not discriminatory
on its face.

First, the Minnesota Supreme Court correctly
concluded that the County’s land-use ordinance does
not discriminate against interstate commerce on its
face. Pet.App.17-24. As the court explained, the
ordinance is not an “export ban” prohibiting any outof-state shipment of a particular resource.
Pet.App.18. Instead, “[a]s a land-use regulation,” the
ordinance “is foremost a restriction on the rights of
Minnesota landowners.” Pet.App.18. The primary
burden of the regulation falls on local landowners
who are fully represented in the local government.
More important, that restriction “is evenhanded on
its face”; it “pays no regard to whether the person or
entity who wishes to engage in industrial mining
resides in-state or out-of-state or wishes to sell the
industrially mined sand to in-state or out-of-state
consumers.” Pet.App.18. Because the ordinance
imposes no “express discrimination between in-state
and out-of-state economic interests, Minnesota Sands’
facial discrimination theory fails.” Pet.App.19.
Minnesota Sands claims that reasoning
conflicts with this Court’s precedent, relying on two
export-ban cases from nearly a century ago. Pet.1819 (discussing Foster-Fountain Packing Co. v. Haydel,
278 U.S. 1 (1928) (shrimp); Pennsylvania v. West
Virginia, 262 U.S. 553, aff’d on reh’g, 263 U.S. 350
18

(1923) (natural gas)). Neither is remotely on point.
Unlike the ordinance here, the statutes in those cases
literally discriminated on their face between in-state
and out-of-state interests, drawing explicit lines at
state borders. Haydel, 278 U.S. at 5 n.1;
Pennsylvania, 262 U.S. at 582 n.1. 3 As the
Minnesota Supreme Court recognized, no comparable
facial discrimination exists here; the ordinance bans
all industrial mining in the County, for both in-state
and out-of-state producers and consumers.
Pet.App.17-19.
Minnesota Sands nevertheless suggests that
the ordinance facially discriminates against out-ofstate interests by allowing mining for “construction
minerals,” including “sand that is produced and used
for local construction purposes.” Pet.11-12 (quoting
Pet.App.195). But as already explained (and as the
Minnesota Supreme Court recognized), construction
sand and industrial silica sand are not the same
thing and pose different risks to the local
environment, supra pp.4-5; Pet.App.27 n.14, and
nothing in the dormant Commerce Clause requires a
county to treat different minerals the same. In any
event, as the Minnesota Supreme Court also
recognized, “‘local’ is not synonymous with ‘in-state’”;
here, the term “can be interpreted to include, at the
very least, the neighboring parts of Wisconsin located
across the river from Winona County,” obviating any
claim that the ordinance facially discriminates along

So too for West v. Kansas Natural Gas Co., 221 U.S. 229,
249-50 (1911) (gas pipelines), which Minnesota Sands cites only
in a footnote and which likewise involved explicit state-line
discrimination.

3

19

state lines. Pet.App.20. 4 Minnesota Sands cites no
case from this Court or any other holding that such
an ordinance, which on its face applies equally to instate and out-of-state interests, is nevertheless
facially discriminatory. Indeed, Minnesota Sands’
position would mean that any state or local
regulation that uses the word “local” faces “a virtually
per se rule of invalidity,” United Haulers Ass’n, Inc. v.
Oneida-Herkimer Solid Waste Mgmt. Auth., 550 U.S.
330, 338 (2007)—a proposition this Court has never
adopted.
2.

The ordinance is not discriminatory
in purpose or effect.

The Minnesota Supreme Court also correctly
concluded that the ordinance does not discriminate
against out-of-state economic interests either in
purpose or in effect. As to purpose, the court
explained that Minnesota Sands had “not pointed to
any concrete evidence” to support its claim that the
ordinance was motivated by “animus toward the
primarily out-of-state fracking industry.” Pet.App.25.
“[T]ellingly, none of the comments that were critical
of the fracking industry were credited by the Board in
its findings adopting the amendment.” Pet.App.25.
Instead, those findings showed that the Board was
motivated by legitimate concern for the County’s
environment, economy, and general welfare, based on
a detailed record showing the negative effects of
Indeed, the term “local construction purposes” could
easily be read to cover any construction that occurs at the local
level (as opposed to interstate or international construction
projects), wherever that construction may be—a reading that
would eliminate any claim of facial discrimination.
4

20

industrial mining in other communities. See supra
pp.6,16.
Minnesota Sands’ petition repeats (and
repeats, and repeats) its claim that the Board was
motivated by anti-fracking animus, see, e.g., Pet.2
(claiming the Board acted “for the express purpose of
choking off” fracking); Pet.24 (“to force other States to
follow its policy views on fracking”); Pet.25 (to
“squelch” fracking), but again points to no evidence
whatsoever to support that claim. Instead, as below,
Minnesota Sands relies solely on “the alleged
motivation of actors who lobbied in favor of the
amendment,” and whose comments were not credited
by the Board. Pet.App.25; see Pet.10. As the
Minnesota Supreme Court explained, those sources—
the equivalent of county-level legislative history, by
public commenters with no decision-making
authority—have “little (if any) probative value in
demonstrating the objective of the Board as a whole.”
Pet.App.25 (brackets omitted).
Minnesota Sands’ claim of discriminatory
effect is equally unpersuasive. As the decision below
recognized, the “crucial inquiry” in assessing
discriminatory effect is whether the ordinance is
“basically a protectionist measure, or whether it can
fairly be viewed as a law directed to legitimate local
concerns, with effects upon interstate commerce that
are only incidental.” Pet.App.25-26 (quoting City of
Philadelphia v. New Jersey, 437 U.S. 617, 624
(1978)). Here, the overwhelming evidence shows that
this land-use ordinance was enacted not to address
out-of-state fracking operations, but to address
genuine and legitimate local concerns over the
negative local environmental, economic, safety, and
21

welfare impacts of industrial silica sand mining. See
supra pp.6,16. By contrast, nothing in the record
suggests that the ordinance was enacted to provide
in-state entities an economic advantage against outof-state entities—to the contrary, it is in-state
property owners who bear the brunt of the burdens.
See Pet.App.29 (explaining that the ordinance “does
not further economic protectionism in the sense that
in-state interests benefit at the expense of out-ofstate interests”); cf. Pet.24 (recognizing that the
ordinance was not “motivated by economic
protectionism”).
Instead, Minnesota Sands argues that the
ordinance creates a discriminatory effect simply
because it bans mining for industrial silica sand,
which has a significant out-of-state use, but does not
ban mining for construction sand for local use.
Pet.22-23; see Pet.App.27. That argument fails for
two reasons. First, as already explained, mining for
industrial silica sand and mining for construction
sand are not the same, see supra pp.14-15, and
nothing in the dormant Commerce Clause requires a
county to treat them as if they were. Regulating
different activities differently does not give rise to a
claim of discriminatory effect. See, e.g., Gen. Motors
Corp. v. Tracy, 519 U.S. 278, 298 (1997) (“[A]ny
notion of discrimination assumes a comparison of
substantially similar entities.” (footnote omitted)).
Second, as the Minnesota Supreme Court explained,
the ordinance applies equally to both in-state and
out-of-state consumers of industrial silica sand, both
of whom are deprived of silica sand from Winona
County. Pet.App.27-28. The ordinance prohibits
mining industrial silica sand not only for out-of-state
industrial uses such as fracking, but also for in-state
22

industrial uses such as manufacturing glass,
shingles, countertops, and other products.
Pet.App.28. That even-handed treatment of in-state
and out-of-state interests “obviates any concern that
the County acts to ‘isolate itself from the national
economy,’ or to ‘saddle those outside the State with
the entire burden’ imposed by the ordinance.’”
Pet.App.28 (brackets omitted) (quoting City of
Philadelphia, 437 U.S. at 627-29).
The decision below does not conflict with any of
the cases from this Court that Minnesota Sands cites.
Contra Pet.20-23 (discussing Brimmer v. Rebman,
138 U.S. 78 (1891); Dean Milk Co. v. City of Madison,
340 U.S. 349 (1951); Bacchus Imports, Ltd. v. Dias,
468 U.S. 263 (1984); Ft. Gratiot Sanitary Landfill,
Inc. v. Michigan Dep’t of Nat. Res., 504 U.S. 353
(1992)). Each of those cases involved precisely the
kind of discriminatory economic protectionism that
this Court’s dormant Commerce Clause doctrine has
been developed to prevent, favoring local economic
interests at the expense of out-of-state interests. In
that context, the Court has found dormant Commerce
Clause violations in cases where a discriminatory
regime harms out-of-state economic interests and
benefits in-state economic interests, even if that
discriminatory regime may harm some in-state
interests as well. See, e.g., Brimmer, 138 U.S. at 80
(statute benefiting local meat producers); Dean Milk,
340 U.S. at 350 (statute benefiting local milk
producers); Bacchus, 468 U.S. at 265 (statute
benefiting local alcohol producers); Ft. Gratiot, 504
U.S. at 355 (statute benefiting local waste producers).
Here, by contrast, there is no claim that the
ordinance benefits any in-state economic interest;
instead, it burdens primarily local property owners in
23

order to protect the local environment and general
welfare. Pet.App.27-29. That is fatal to Minnesota
Sands’ claim of discriminatory effect.
C. Minnesota Sands’ Dormant Commerce
Clause Arguments Are Not Dispositive.
Even if there were any merit to Minnesota
Sands’ dormant Commerce Clause arguments, this
case would still be a poor vehicle for considering
them, because none of those arguments is outcomedeterminative. On the contrary, the Minnesota
Supreme Court specifically held below that ruling for
Minnesota Sands on its dormant Commerce Clause
claim “would not lead to a different result in this
case.” Pet.App.23. That alternative holding makes
this case a particularly unattractive vehicle for
reviewing Minnesota Sands’ novel dormant
Commerce Clause arguments.
As the Minnesota Supreme Court explained,
even if Minnesota Sands could show that the “use of
the term ‘local’” in the County’s ordinance was
discriminatory and violated the Commerce Clause,
the proper remedy for that defect would be to strike
only “the portions [of the ordinance] that render [it]
unconstitutional.” Pet.App.23 (quoting State v.
Melchert-Dinkel, 844 N.W.2d 13, 24 (Minn. 2014)).
Thus, even if there were some impermissible
discrimination in defining “construction minerals” to
include sand used for “local construction purposes,”
the remedy would simply be to strike the word “local,”
such that the ordinance would permit mining
construction sand for all construction purposes
(whether local or not). Pet.App.24.
24

That remedy, however, would do Minnesota
Sands no good at all. As Minnesota Sands admitted
below, it “has no interest in mining sand to be used
for ‘construction purposes,’” whether local or
otherwise. Pet.App.24. Even if the “local” restriction
on mining construction sand that Minnesota Sands
claims is discriminatory were removed (allowing
entities to mine construction sand for local or nonlocal construction), Minnesota Sands would still be
prohibited from mining industrial silica sand for
industrial purposes. Pet.App.24. As such, even if
this Court were to rule for Minnesota Sands on its
dormant Commerce Clause claim, Minnesota Sands
still “would not be entitled to relief.” Pet.App.24.
This Court should not squander its limited resources
on a question whose resolution cannot affect the
outcome of the case.
D. Minnesota Sands’ Assertion That Review
Is Needed To Prevent Economic Conflict
Is Baseless.
Minnesota Sands ends its dormant Commerce
Clause argument by claiming that review is needed to
“prevent a proliferation of similarly destructive
economic conflicts,” portraying the decision below as
an invitation to local governments to “export their
policy views by constraining exports of their natural
resources.” Pet.24-27. That portrayal has no basis in
reality. As already explained (and as the Minnesota
Supreme Court recognized), nothing in the record in
any way supports Minnesota Sands’ baseless
assertion that Winona County enacted the challenged
ordinance to “force other States to follow its policy
views on fracking” because the County “disapprove[s]
of” that practice. Contra Pet.24; see Pet.App.25. On
25

the contrary, the record makes abundantly clear that
the Board adopted the ordinance not to regulate outof-state fracking but based on serious and legitimate
concerns about the negative effects of in-county
industrial silica-sand mining. Supra pp.6,16; App.148; see Pet.App.25, 122-31. That classic effort to
regulate locally to protect the local environment poses
no grave threat to the national economy.
Minnesota Sands similarly fails to substantiate
its claim of a “recent and concerning trend” of local
governments “discriminat[ing] against interstate
commerce in order to squelch disfavored economic
activity occurring in a sister State.” Pet.25. If that
claim had any basis in reality, one would expect
Minnesota Sands to have more evidence of its
purported “trend” than three barely-relevant cases
over the past seventeen years. An occasional case
every five years is hardly a trend, let alone evidence
of a pressing need for this Court’s attention. If
anything, those cases (two of which struck down the
challenged laws) only confirm that courts already
have the requisite tools to address any local
regulations that do in fact discriminate against
interstate commerce. The only “threat to the
federalist underpinnings of our republic” that this
petition raises, Pet.25-26, is the risk that petitioners
like Minnesota Sands will continue trying to expand
the judge-made contours of the dormant Commerce
Clause to strike down legitimate, nondiscriminatory
state and local regulations designed to address
unique local circumstances and concerns. That is a
threat this Court should reject, not encourage.

26

II.

This Court Should Deny Certiorari On
Minnesota Sands’ Splitless, Factbound,
And Meritless Takings Claim.

Minnesota Sands’ second question presented is
just as uncertworthy as its first. Once again,
Minnesota Sands distorts the decision below almost
beyond recognition, claiming the Minnesota Supreme
Court held that a local government can use
“permitting requirements” to “eliminate the existence
of a federally protected property interest.” Pet.i. In
fact, the decision below simply holds that under
Minnesota law and the plain terms of Minnesota
Sands’ leases, which were acquired by Minnesota
Sands during a moratorium and were highly
contingent on events that never came to pass,
Minnesota Sands never acquired the property
interest that it now claims was taken. That splitless,
factbound, and correctly decided issue does not
warrant this Court’s review.
A. The Decision Below Held Only That The
Specific Terms Of Minnesota Sands’
Leases Gave It No Property Interest Here,
Not That Permitting Requirements
Eliminate Otherwise Protectable
Property Interests.
Minnesota Sands claims that review of the
decision below is needed because, it says, the
Minnesota Supreme Court held that “a mineral
estate in land cannot qualify as ‘property’ under the
Fifth Amendment unless and until the owner has
obtained all necessary mining permits.” Pet.28; see
Pet.32-33 (claiming the decision below “interpreted
the Fifth Amendment to mean that a mineral estate
27

is not ‘property’ in the absence of a mining permit”).
Minnesota Sands suggests that it invested
substantial resources to acquire valuable mineral
leases rendered worthless by subsequent regulation.
That description of the decision below is patently
false. In fact, Minnesota acquired the highlycontingent leases here, which paid the original
landowners a pittance ($1000 in upfront payments),
in the wake of a moratorium on industrial mining.
The resulting leases were entirely contingent on longshot regulatory approvals that never came to pass.
The Minnesota Supreme Court came nowhere near
claiming that mineral estates generally do not qualify
as property (under either Minnesota law or the Fifth
Amendment) until all required permits have been
obtained; instead, it held only that under the terms of
Minnesota Sands’ leases, Minnesota Sands never
satisfied the “specific conditions that govern
Minnesota Sands’ rights to use and possess the leased
premises,” and so never acquired the mineral estate
that Minnesota Sands claims was taken. Pet.App.36;
see Pet.App.36-39. That fact-specific state-law
question about the terms of Minnesota Sands’
particular leases does not warrant certiorari.
The Minnesota Supreme Court could not have
been clearer about the limited nature of its holding.
The court specifically recognized that Minnesota law
does acknowledge mineral leases as a valid property
interests that are protected against governmental
takings. Pet.App.33-34. But while mineral leases
generally may grant property interests, the court
explained, “[t]he property interests, if any, belonging
to the lessee … depend upon the terms of the lease.”
Pet.App.35. Here, the leases that Minnesota Sands
signed did not grant Minnesota Sands any immediate
28

property interest in the mineral estates involved.
Instead, the Minnesota Supreme Court concluded,
“the essential terms of these leases are subject to
specific conditions that govern Minnesota Sands’
rights to use and to possess the leased premises” and
under those conditions, “Minnesota Sands had no
right to use or possess the land until it was able to
engage in silica sand mining.” Pet.App.36-37. That
is, unless and until Minnesota Sands acquired the
permits necessary to begin mining silica sand, “the
leases reserved the rights to use and possess the
premises to the lessors in absolute terms.”
Pet.App.37.
As the decision below carefully explained, it
was “[t]hese lease terms”—not the county’s
permitting requirements—that were “the fatal defect
in Minnesota Sand[s’] takings claim.” Pet.App.37.
Because “the conditions precedent to acquiring
possession and control under any of the leases” were
never satisfied, the court concluded that Minnesota
Sands “does not have a fully-fledged leasehold
interest under Minnesota law.” Pet.App.38; see
Pet.App.43 (explaining that “under Minnesota law
Minnesota Sands never had a present, or even noncontingent, possessory right to use, or to possess and
control, the premises described in its lease
agreements”). Instead, “the agreements at most
grant Minnesota Sands expectancy interests that are
too speculative to support a takings claim.”
Pet.App.38. 5 The problem with Minnesota Sands’
5

In particular, because Minnesota Sands never actually
satisfied the conditions in its leases, it held at most a tenuous
contingent interest in acquiring the underlying mineral estate if
it eventually satisfied those required contractual conditions. As

29

takings claim, in other words, is not that the County’s
permitting requirements somehow deprived it of a
protectable property interest; it is that Minnesota
Sands never satisfied the conditions in its leases that
would have given Minnesota Sands a protectable
property interest in the first place. See Pet.App.42
(explaining that “[f]or a variety of understandable
reasons,” Minnesota Sands “never came close to
securing the possessory rights described in its lease
agreements”). 6
Notably, the Minnesota Supreme Court
specifically rejected the idea that its decision would
mean that local permitting requirements could
deprive property owners of protectable property
interests. As the court explained, its decision rested
instead on “the uncontroversial premise that the
government cannot ‘take’ property rights that a party
never had.” Pet.App.38 n.19. Because Minnesota
Sands was attempting to assert “rights that the
terms of the lease never granted,” it had no takings
claim. Pet.App.38 n.19. And as the court
emphasized, “the rights granted under the terms of
the lease agreements were determined by the
the Minnesota Supreme Court explained, that interest “was, at
most, a contingent-use interest under Minnesota law” that
Minnesota treats as an “expectancy” rather than a property
right. Pet.App.38, 42-43. Minnesota Sands does not challenge
that state-law holding.
6
Minnesota Sands’ contrary claim that the Minnesota
Supreme Court “recognized that Minnesota Sands owns valid
mineral estates under Minnesota law,” Pet.32, is simply not
true. In fact, the Minnesota Supreme Court’s opinion says the
exact opposite. Pet.App.34-38 (“Minnesota Sands does not have
a fully-fledged leasehold interest under Minnesota law.”);
Pet.App.42-43 (“Minnesota Sands never came close to securing
the possessory rights described in its lease agreements.”).

30

parties”; it was Minnesota Sands’ own contracts, not
county regulation, that “limit[ed] Minnesota Sands’
rights to a contingency interest.” Pet.App.38 n.19.
Put simply, Minnesota Sands’ second question
presented, like its first, is not actually presented by
this case. Nothing in the decision below holds that
local permitting requirements “eliminate the
existence of a federally protected property interest,”
contra Pet.i.; it simply holds that under the terms of
Minnesota Sands’ leases, Minnesota Sands never
acquired any such property interest from the lessors
because Minnesota Sands never fulfilled the
necessary conditions precedent. That state-law
question about the proper interpretation of these
specific leases hardly merits this Court’s review.
B. The Decision Below Does Not Conflict
With Decisions From Other Courts Or
With This Court’s Precedent.
Minnesota Sands’ attempt to portray the
decision below as conflicting with other courts or with
precedent from this Court is equally misguided.
There is no split between the Minnesota Supreme
Court’s decision and the scattered handful of lowercourt opinions from the past 30 years that Minnesota
Sands cites, and the judgment below in no way
contravenes any of this Court’s prior rulings.
To begin with, the limited nature of the
decision below makes clear that there is no lowercourt split here. The Minnesota Supreme Court did
not hold that there can be no protectable property
interest in a mineral estate subject to permitting
requirements, contra Pet.28, 32-33; in fact, it
31

specifically rejected that conclusion, see Pet.App.3334, 38 n.19. Instead, the Minnesota Supreme Court
held only that under the terms of Minnesota Sands’
particular leases, Minnesota Sands has not acquired
any such property interest. Supra p.11. The fact
that other courts reviewing different leases and
applying different state law have reached different
decisions does not create any conflict, much less one
warranting this Court’s review.
Even if the decision below could be read as a
broader statement about the kind of property
interests that Minnesota law recognizes, it still would
not be in tension with the other decisions Minnesota
Sands cites. This Court has been clear that the
federal Constitution does not create property
interests; instead, those interests “stem from an
independent source such as state law.” Lucas v. S.C.
Coastal Council, 505 U.S. 1003, 1030 (1992) (quoting
Bd. of Regents of State Colleges v. Roth, 408 U.S. 564,
577 (1972)); see, e.g., Webb’s Fabulous Pharms., Inc.
v. Beckwith, 449 U.S. 115, 161 (1980). In that context,
it is hardly surprising that courts applying different
states’ laws may reach different conclusions about
whether a particular interest constitutes property
under state law, and whether as a result the
purported property-owner has a valid takings claim.
In any event, the cases Minnesota Sands cites
are readily distinguishable. Minnesota Sands leads
with United Nuclear Corp. v. United States, 912 F.2d
1432 (Fed. Cir. 1990), where the Federal Circuit
found a regulatory taking of mineral leases when the
Secretary of the Interior delayed approving a
uranium mining plan—based on an invented “tribal
approval” requirement that “was not adopted or
32

included in any regulation”—for so long that the
leases expired. Id. at 1436. Unlike Minnesota Sands,
the plaintiff in United Nuclear had already satisfied
the necessary preconditions for its leases to “become
effective,” id. at 1434, and so already had an existing
and undisputed mineral leasehold interest that was
arbitrarily destroyed by the government’s unlawful
delay. No similar circumstances exist here.
Minnesota Sands turns next to a vacated trialcourt decision from the Court of Federal Claims, John
R. Sand & Gravel v. United States, 62 Fed. Cl. 556
(2004), vacated, 457 F.3d 1345 (Fed. Cir. 2006), and
vacatur aff’d, 552 U.S. 130 (2008). That vacated
decision not only has no precedential force, and not
only depended on Michigan law rather than
Minnesota law, id. at 564, but also specifically noted
that the defendant there was not arguing the only
question Minnesota Sands claims is relevant:
whether any existing property interest was “voided
by the lack of permits.” Id. at 568.
Minnesota Sands has no more luck with its
state-court cases. It begins with a decision from an
intermediate Pennsylvania appellate court on which
the Pennsylvania Supreme Court has granted further
review. PBS Coals, Inc. v. Dep’t of Transp., 206 A.3d
1201 (Pa. Cmwlth. Ct.), review granted 218 A.3d 373
(Pa. 2019) (table). That decision appears to turn
entirely on Pennsylvania law, and does not even
mention the Fifth Amendment. And once again, the
claimants there (unlike Minnesota Sands here) had
effective leases that “made them the owners of the
coal estate” that was allegedly taken. Id. at 1223. As
for the Ohio Supreme Court’ decision in Ohio ex rel.
R.T.G., Inc. v. State, 780 N.E.2d 998 (Ohio 2002), it
33

says nothing about whether permitting requirements
may affect a takings claim; instead, it addresses how
to define the relevant parcel for a regulatory takings
analysis where only part of the property was affected
by the alleged taking. Id. at 1006-09. Finally, the
intermediate Utah appellate decision in Diamond BY Ranches v. Tooele County, 91 P.3d 841 (Utah App.
2004), is entirely irrelevant. That case addressed
whether the denial of a conditional-use permit was a
regulatory taking, not whether an entity that lacks
any existing leasehold interest in the underlying
minerals can claim such a taking.
In fact, the only litigation Minnesota Sands
mentions that actually addressed a similar question
agrees with the decision below. See Pet.31 (citing
Seven Up Pete Joint Venture v. Montana, 2002 WL
34447228 (D. Mont. Dec. 9, 2002)). The relevant
decision in that litigation came three years later from
the Montana Supreme Court, which reviewed the
leases at issue in that case and found they “ma[d]e
clear that the [plaintiff] was obligated by contract to
secure an operating permit … before it would acquire
any ‘right’ to mine.” Seven Up Pete Venture v. State,
114 P.3d 1009, 1019 (Mont. 2005). Because the
plaintiff there “had not secured an operating permit
as required by the [leases] … it likewise had not
obtained a right to mine,” and so could not claim any
unconstitutional taking of a right it never held. Id.
That reasoning precisely (and correctly) mirrors the
Minnesota Supreme Court’s reasoning here.
There is not only no “confusion among the
lower courts,” but also no conflict with this Court’s
precedent. Contra Pet.33. Nothing in the Minnesota
Supreme Court’s decision undermines the settled
34

principle that the mere existence of a permitting
requirement is not itself a taking, contra Pet.33
(citing United States v. Riverside Bayview Homes,
Inc., 474 U.S. 121 (1985)), or that the denial of a
permit can be a taking under appropriate
circumstances, contra Pet.33 (citing Koontz v. St.
Johns River Water Mgmt. Dist., 570 U.S. 595 (2013).
On the contrary, the Minnesota Supreme Court
specifically recognized that land-use regulations like
zoning laws do not necessarily constitute takings, but
that they may become a taking if they “go too far.”
Pet.App.32 (quoting Pa. Coal Co. v. Mahon, 260 U.S.
393, 415 (1922)).
Nor does the decision below remotely suggest
that these principles do not apply to mineral estates.
Contra Pet.34 (citing Suitum v. Tahoe Reg’l Planning
Agency, 520 U.S. 725 (1997); Hodel v. Va. Surface
Min. & Reclamation Ass’n, Inc., 452 U.S. 264, 297
(1981)). Instead, the Minnesota Supreme Court
specifically recognized that a mineral estate is a valid
and separable property interest under Minnesota
law, and that “such partitions must be respected.”
Pet.App.33 (citing Washburn v Gregory Co., 147 N.W.
706 (Minn. 1914)). The court held only that under
the terms of the specific leases at issue, that property
interest had not yet been conveyed to Minnesota
Sands, because Minnesota Sands had not yet
satisfied the “specific conditions that govern
Minnesota Sands’ rights to use and to possess the
leased premises.” Pet.App.36; see Pet.App.30
(agreeing with the Minnesota Court of Appeals and
the trial court that “the property interests that
[Minnesota Sands] claims were taken by the County
had not yet accrued”). That holding—a plain-text
application of the specific terms of the specific leases
35

here—comes nowhere near contravening this Court’s
precedent.
For the same reasons, Minnesota Sands is
plainly wrong to claim that the decision below creates
a “shell game” that “seriously endanger[s]” Minnesota
property rights and “opens the door for local
governments to eliminate immensely valuable
mineral rights without paying any compensation at
all.” Contra Pet.34-35. Minnesota Sands is quite
correct to say that a mineral-rights owner is not
likely to succeed on a facial takings challenge to a
land-use regulation that requires a permit for
industrial mining; but it is quite wrong to claim that
the decision below categorically forecloses any
takings challenge to a subsequent decision denying
such a permit or banning mining altogether. Instead,
the decision below holds only that such a challenge
cannot be brought by a mineral lessee who has not
actually acquired the right to mine the property
under the terms of its own lease. Pet.App.35 (“The
property interests, if any, belonging to a lessee …
depend upon the terms of the lease.”). That holding
is entirely correct, poses no conflict with any decision
from this Court or any other, and does not warrant
review.
CONCLUSION
The petition for certiorari should be denied.
Respectfully submitted this December 7, 2020.

36

Jay T. Squires,
Elizabeth J. Vieira
Counsel of Record
Kristin C. Nierengarten
Rupp, Anderson, Squires &
Waldspurger, P.A.
333 South Seventh Street
Suite 2800
Minneapolis, Minnesota 55402
612-436-4300
liz.vieira@raswlaw.com

37

WINONA COUNTY BOARD OF
COMMISSIONERS
WINONA COUNTY, MINNESOTA
IN THE MATTER OF AN AMENDMENT TO
THE WINONA COUNTY ZONING
ORDINANCE TO RESTRICT THE MINING
AND PROCESSING OF INDUSTRIAL
MINERALS IN WINONA COUNTY
PROCEDURAL HISTORY,
FINDINGS OF FACT, CONCLUSIONS,
AND ADOPTION OF ZONING
ORDINANCE AMENDMENT
The above-named matter came before the Winona
County Board of Commissioners (hereinafter referred
to as the "Board") for consideration of a proposed
amendment to the Winona County Zoning Ordinance
(hereinafter referred the as the "WCZO") to restrict
the mining and processing of industrial silica sand in
Winona County.
Based upon the Board's consideration of the entire
record in this matter which included the preparation
of a viability analysis of the proposed amendment; the
Winona County Planning Commission's (hereinafter
referred to as the "WCPC") review of the matter,
which included the WCPC's public hearings and
receipt of written comments on the proposed
amendment; the recommendation to the Board by the
WCPC to adopt a modified version of the proposed
amendment; subsequent public hearing held before
the Board, and written comments submitted to the
Board on the matter, the Board makes the following
decision:
A-1

PROCEDURAL HISTORY
1. On April 26, 2016, the Board voted 3-2 to
forward to the Winona County Planning and
Environmental Services Department
(hereinafter referred to as the "Planning
Department") and the Winona County
Attorney for review as to viability pursuant
to WCZO Ch. 4, Sect. 4.3 and Ch. 2, Sect. 2.6,
a proposed amendment to the WCZO put
forward by the Land Stewardship Project
(hereinafter referred to as "LSP"). The LSP
· proposed amendment was titled: "Winona
County Zoning Ordinance Amendment
Regarding Industrial Frac Sand".
2. On June 14, 2016, in response to its
direction for a viability analysis of the LSP
proposed amendment, the Board received
from the Winona County Attorney, her
opinion, dated June 3, 2016, and titled: "A
LEGAL ANALYSIS OF THE VIABILITY OF
THE PROPOSED AMENDMENT TO THE
WINONA COUNTY ZONING ORDINANCE
TO RESTRICT CERTAIN MINING AND
PROCESSING OF SILICA SAND IN
WINONA COUNTY, MINNESOTA"
(hereinafter referred to as the "June 3rd
Opinion"). The June 3rd Opinion
determined that the LSP proposed
amendment was minimally viable. The June
3rd Opinion provided and recommended a
modified form of the LSP proposed
amendment that would be more viable in
terms of meeting the legal requirements for
amending an ordinance. That modified
A-2

form of the proposed amendment was
entitled "Appendix B. Model Ordinance
Language from Land Stewardship Project
Modified for Greater Viability by Winona
County Attorney's Office after Viability
Review Directed by Winona County Board:
WINONA COUNTY ZONING ORDINANCE
AMENDMENT REGARDING INDUSTRIAL
MINERAL OPERATIONS" (as attached to
the June 3rd Opinion and hereinafter
referred to as the "Proposed Ordinance
Amendment")
3. At that same June 14, 2016 Board meeting,
the Board directed that the Proposed
Ordinance Amendment be referred to the
WCPC for review and recommendation,
pursuant to WCZO Ch. 4, Sect. 4.3 and Ch. 2,
Sect. 2.6.
4. Starting on June 30, 2016, and for multiple
hearings afterwards, the WCPC met, heard
public testimony, reviewed public written
comment, and discussed the Board-referred
Proposed Ordinance Amendment. Seventy-six
(76) persons testified at the June 30, 2016
public hearing. 203 written comments were
submitted to the WCPC and 35 additional
documents were submitted in response to
requests by the WCPC for info1mation.
5. On August 11, 2016, the WCPC voted 5 to 3
to recommend that the Board adopt a
modified form of the Proposed Ordinance
Amendment (hereinafter referred to as
"WCPC's Recommendation") that would allow
A-3

up to six new industrial mineral mines to
operate in Winona County at any one time.
Each site could not exceed 40 acres in size
without there being reclamation of previously
mined acreage.
6. At its August 23, 2016 meeting, the Board
received the WCPC's Recommendation. The
Board then directed the Winona County
Attorney to review the WCPC's
Recommendation, provide legal analysis, and
discuss the procedure to follow going forward
regarding consideration of amending the
WCZO to address industrial mining and
processing in Winona County. The Board also
directed the Planning Department to work
together with the County Attorney to assist
in preparing a memorandum to the Board
regarding options and process going forward.
That memorandum, dated October 4, 2016,
was submitted to the Board for its review
(hereinafter referred to as the "October 4th
Memo").
7. The Board held a public hearing on October
13, 2016 to receive public hearing comment
on the WCPC's Recommendation. Written
public comment was also accepted by the
Board up until October 18, 2016. One
hundred and nine (109) individuals spoke at
the October 13, 2016 public hearing. 151
written comments were received and 5 other
documents were submitted for the Board's
consideration.

A-4

8. At its regular meeting on October 25, 2016,
the Board took up the matter of considering
the various proposed amendments to the
WCZO on industrial mineral operations in
Winona County. The Board's October 25th
agenda materials included the October 4th
Memo, which contained legal analysis and
options for the Board to consider regarding
the decision before it. After extensive
discussion, the Board voted 3-2 "to adopt
County Attorney's Recommendation Option
A. Large Scale Industrial Silica Sand Mining
and Processing Prohibited". October 25, 2016
County Board Minutes. This was the Option
A contained in the October 4th Memo. The
Board also voted 3-2 "to direct the County
Attorney to include paragraph 1 (page 42
County Board Meeting Packet) into the
ordinance language and to submit the
ordinance on the November 22, 2016 County
Board agenda." October 25, 2016 County
Board minutes. The referenced paragraph 1
read: "Once the Board makes its decision,
whatever that decision is, the County Attorney
and Planning staff recommend that the
Board, prior to final vote, direct us to draft the
ordinance language to be adopted and an
order containing findings, conclusions and
order which supports and memorializes the
Board's decision. If no ordinance amendment
is adopted, there still needs to be an order
containing findings, conclusions and order
which supports that decision." October 4th
Memo at page 3.

A-5

FINDINGS OF FACT
9. The Board finds that the issues before it
regarding the policy decisions it must address
in determining whether to adopt an
amendment and what form of amendment to
the WCZO regarding the mining and
processing of industrial minerals and
specifically silica sand mining and processing,
are not new to the Board and to Winona
County.
10. The historical record of silica sand mining
and processing before the Board goes back to
2011 when much of the southeastern
Minnesota region's local governments from
Goodhue County south along the Mississippi
River corridor through Wabasha and
Winona Counties on down to Houston
County and west into Fillmore and Olmsted
Counties were faced with dealing with an
explosion in the demand for silica sand to be
used in the hydraulic fracturing and
horizontal drilling process using pressurized
liquids and silica sand to extract gas and oil
from rock formations. See:
https://www2.usgs.gov/ hydraulic fracturing/.
11. In Winona County, the issue was brought
forward to the Board after several
conditional use permits for silica sand mine
operations were filed. Then as now, the
primary concerns relating to silica sand
mining, transport and processing operations
within Winona County are related to air
quality, water quality, trucking and road
A-6

impact, traffic safety, and landscape
aesthetics. In September 2011, three
separate sites in Saratoga Township, Winona
County, filed petitions for the issuance of
conditional use permits to allow silica sand
mining operations.
12. In working with the applicants to prepare
their requests, Planning Department staff
had concerns about the WCZO in regard to
regulation of silica sand mining operations.
As a result, a meeting among county officials
was held on September 26, 2011, and the
Winona County Attorney's Office prepared a
memorandum evaluating the issues raised
and recommended a one-year moratorium to
study the impact of silica sand mining on the
public health, safety, and welfare as well as
the financial impact on the County public
works.
13. The three conditional use pe1mits were
initially considered at the October 20, 2011,
WCPC meeting and, after extensive public
hearing and discussion, the applications
were tabled to a future meeting. At the
November 17, 2011, WCPC voted to not hold
a public hearing on a moratorium regarding
silica sand mining and related operations.
14. On November 29, 2011, the Board discussed
silica sand mining conditional use permits
and moratorium options, authorizing two
public hearings-one before the WCPC and
one before the Board. At its December 15,
2011 meeting, the WCPC heard public
A-7

comment regarding whether a moratorium
on silica sand mining should be imposed, but
took no action after two motions failed. The
Board held a public hearing on January 3,
2012, regarding the possible imposition of a
silica sand mining moratorium.
15. On January 10, 2012, the Board denied the
three pending conditional use permit
requests for silica sand mining operations
and enacted a three-month moratorium on
silica sand mining operations, to allow for
the completion of a land use planning study
by County staff. This moratorium became
effective upon its publication on February 1,
2012. During the moratorium, the Planning
Department completed a land use study
analyzing and referencing current land use
policies in Winona County and their
applicability for silica sand mining. At the
same time and working together with the
Planning Department, the Winona County
Attorney's Office analyzed the policy and
legal considerations relating to
Environmental Work Sheet (EAW) or
Environmental Impact Statement (EIS)
necessity for silica sand sites, roadway
pavement impact policy, fee assessment
options, and the conditional use permit
process.
16. The Board reviewed these analyses at its
April 24, 2012 meeting along with the
application and recommended conditions
from the Planning Department for future use
requests. The Planning Department provided
A-8

a list to the Board of recommended
Conditions of Approval for silica-sand
mining. The WCPC and the Board retained
discretion about whether an environmental
review, either an Environmental Assessment
Worksheet (EAW) or Environmental Impact
Study (EIS), would be required. State and
federal requirements were also required to
be met for the Board to grant a Conditional
Use Permit (CUP). Out of that study came
the adoption of the County's Silica Sand
Mining and Processing Pre-Application
packet, the Road Use Agreement, and
numerous other documents that covered
legal and technical analysis of the silica sand
issue. The moratorium was allowed to expire
on May 1, 2012.
17.

On July 20, 2012, one of the previous
applicants, David Nisbit, resubmitted a
petition for a conditional use permit allowing
a 19.1 acre silica sand mining operation on
his property in Saratoga Township. The
WCPC heard the petition at its August 16,
2012 meeting and recommended the Board
approve the conditional use permit, with
conditions recommended by staff plus an
additional two conditions. The petition was
then considered by the Board on October 2,
2012, at which time it was tabled pending
the completion of an EAW. At the direction of
the Board, a public hearing was held on
March 21, 2013, regarding the Nisbit EAW.
Following that hearing, the Board on a 3-2
vote issued a negative declaration regarding
the need for an EIS. Concerned citizens then
A-9

petitioned the Minnesota Court of Appeals
for a writ of certiorari, challenging the
negative declaration for an EIS.
18. On June 4, 2013, the Board approved the
Nisbit conditional use permit, with the
conditions recommended by the Planning
Department and WCPC as well as two
additional conditions. The concerned citizens
subsequently petitioned the Minnesota Court
of Appeals for a writ of certiorari, challenging
the issuance of the conditional use permit.
The Court of Appeals consolidate the two
appeals. In a decision issued on June 16,
2014, the Court of Appeals affirmed the
Board's decisions regarding the EIS and the
conditional use permit, finding that the Board
considered all appropriate factors in making
both decisions. Since the expiration of the
moratorium in May 2012, no other petitions
for conditional use permits for silica sand
mining operations have been received in
Winona County.
19. In 2013, legislation was passed and signed
into Minnesota law to address silica sand
mining, processing and transportation
operations in Minnesota. See Minnesota
Statutes Sections 116C.99 through 116C.992.
The legislation directed state agencies to
provide local units of government with
technical assistance on regulation and
permitting. The legislation also set new
thresholds for environmental review of silica
sand related operations and required
development of a number of new regulations.
A-10

The agencies involved in implementing the
legislation included the Minnesota
Environmental Quality Board (hereinafter
the "EQB"), Minnesota Pollution Control
Agency, Minnesota Department of Natural
Resources, Minnesota Department of
Transportation, Minnesota Department of
Health, and Minnesota Department of
Agriculture. See: http://silicasand.mn.gov/
20.

The legislation also established silica sand
mining model standards and criteria and
defined terms, including "silica sand" and
"silica sand project":
116C.99 SILICA SAND MINING MODEL
STANDARDS AND CRITERIA.
Subdivision I. Definitions.
The definitions in this subdivision apply to
sections 116C.99 to 116C.992.
(a) "Local unit of government" means a
county, statutory or home rule charter city,
or town.
(b) "Mining" means excavating silica sand
by any process, including digging,
excavating, drilling, blasting, tunneling,
dredging, stripping, or by shaft.
(c) "Processing" means washing, cleaning,
screening, crushing, filtering, sorting,
processing, stockpiling, and storing silica
sand, either at the mining site or at any
other site.
(d) "Silica sand" means well-rounded,
sand-sized grains of quartz (silicon
dioxide), with very little impurities in
terms of other minerals. Specifically, the
A-11

silica sand for the purposes of this section
is commercially valuable for use in the
hydraulic fracturing of shale to obtain oil
and natural gas. Silica sand does not
include common rock, stone, aggregate,
gravel, sand with a low quartz level, or
silica compounds recovered as a by-product
of metallic mining.
(e) "Silica sand project" means the
excavation and mining and processing of
silica sand; the washing, cleaning,
screening, crushing, filtering, drying,
sorting, stockpiling, and storing of silica
sand, either at the mining site or at any
other site; the hauling and transporting of
silica sand; or a facility for transporting of
silica sand to destinations by rail, barge,
truck, or other means of transportation.
(f) "Temporary storage" means the
storage of stockpiles of silica sand that
have been transported and await
further transport.
(g) "Transporting" means hauling and
transporting silica sand, by any carrier:
(1) from the mining site to a
processing or transfer site; or
(2) from a processing or storage site
to a rail, barge, or transfer site for
transporting to destinations.
Subd. 2. Standards and criteria.
(a)

By October 1, 2013, the Environmental
Quality Board, in consultation with
local units of government, shall develop
model standards and criteria for
A-12

(b)

mining, processing, and transporting
silica sand. These standards and
criteria may be used by local units of
government in developing local
ordinances. The standards and criteria
shall be different for different
geographic areas of the state. The unique
karst conditions and landforms of
southeastern Minnesota shall be
considered unique when compared with
the flat scoured river terraces and
uniform hydrology of the Minnesota
Valley. The standards and criteria
developed shall reflect those differences
in varying regions of the state.
[emphasis added.]
The standards and criteria must include:
(1) recommendations for setbacks or
buffers for mining operation and
processing, including:
(i) any residence or residential
zoning district boundary;
(ii) any property line or right-ofway line of any existing or
proposed sheet or highway;
(iii) ordinarily high-water levels of
public waters;
(iv) bluffs;
(v) designated trout streams, Class
2A water as designated in the
rules of the Pollution Control
Agency, or any perennially
flowing
tributary
of
a
designated trout stream or
Class 2A water;
(vi) calcareous fens;
A-13

(vii) wellhead protection areas as
defined in section 103I.005;
(viii) critical natural habitat
acquired by the commissioner
of natural resources under
section 84.944; and
(ix) a natural resource easement
paid wholly or in part by public
funds;
(2) standards for hours of operation;
(3) groundwater and surface water
quality and quantity monitoring
and mitigation plan requirements,
including:
(i) applicable groundwater and
surface water appropriation
permit requirements;
(ii) well-sealing requirements;
(iii) annual submission of
monitoring well data; and
(iv) storm water runoff rate limits
not to exceed two-, ten-, and
100-year storm events;
(4) air monitoring and data submission
requirements;
(5) dust control requirements;
(6) noise testing and mitigation plan
requirements;
(7) blast monitoring plan requirements;
(8) lighting requirements;
(9) inspection requirements;
(10) containment requirements for silica
sand in temporary storage to protect
air and water quality;
(11) containment requirements for
chemicals used in processing;
A-14

(12) financial assurance requirements;
(13) road and bridge impacts and
requirements; and
(14) reclamation plan requirements as
required under the rules adopted by
the commissioner of natural
resources.
Subd. 3. Silica sand technical assistance
team.
By October 1, 2013, the Environmental Quality
Board shall assemble a silica sand technical
assistance team to provide local units of government,
at their request, with assistance with ordinance
development, zoning, environmental review and
permitting, monitoring, or other issues arising from
silica sand mining and processing operations. The
technical assistance team may be chosen from
representatives of the following entities: the
Department of Natural Resources, the Pollution
Control Agency, the Board of Water and Soil
Resources, the Department of Health, the
Department of Transportation, the University of
Minnesota, the Minnesota State Colleges and
Universities, and federal agencies. A majority of the
members must be from a state agency and all
members must have expertise in one or more of the
following areas: silica sand mining, hydrology, air
quality, water quality, land use, or other areas
related to silica sand mining.
Subd. 4. Considering technical assistance
team recommendations.
(a) When the technical assistance team, at the
request of the local unit of government, assembles
findings or makes a recommendation related to a
A-15

proposed silica sand project for the protection of
human health and the environment, a local
government unit must consider the findings or
recommendations of the technical assistance team in
its approval or denial of a silica sand project. If the
local government unit does not agree with the
technical assistance team's findings and
recommendations, the detailed reasons for the
disagreement must be part of the local government
unit's record of decision.
(b)
Silica sand project proposers must cooperate
in providing local government unit staff and members
of the technical assistance team with information
regarding the project.
(c)
When a local unit of government requests
assistance from the silica sand technical assistance
team for environmental review or permitting of a
silica sand project, the local unit of government may
assess the project proposer for reasonable costs of the
assistance and use the funds received to reimburse
the entity providing that assistance.
History: 2013 c 114 art 4 s 91
21. Minnesota Statutes Section 116C.992 was also
adopted which reads:
TECHNICAL ASSISTANCE, ORDINANCE,
AND PERMIT LIBRARY.
By October 1, 2013, the Environmental Quality
Board, in consultation with local units of
government, shall create and maintain a library
on local government ordinances and local
government permits that have been approved for
regulation of silica sand projects for reference by

A-16

local governments.
22. In response to the 2013 silica sand mining law,
the EQB created a "Toolkit" for Local
Governments to Use in Developing Silica Sand
Policies and Ordinances". See:
https://www.eqb.state.nm.us/sites/default/files/do
cuments/Tools%20for%20Local%20Go
vt%20approved%20March%2019 with Errata.pdf
23. The EQB and the other state agencies charged
with working on silica sand mining issues in
Minnesota continue their work, but a check of
the EQB website shows that no rules have been
issued. The 2015 Minnesota Legislature in a
special session modified Section 116C.991 of the
2013 law (Minnesota Statutes 116C.991-2013) to
extend the rulemaking time period. The law now
reads as follows:
116C.991 ENVIRONMENTAL REVIEW;
SILICA SAND PROJECTS.
(a) Until a final rule is adopted pursuant to
Laws 2013, chapter 114, article 4, section
105, paragraph (d), an environmental
assessment worksheet must be prepared for
any silica sand project that meets or exceeds
the following thresholds, unless the project
meets or exceeds the thresholds for an
environmental impact statement under rules
of the Environmental Quality Board and an
environmental impact statement must be
prepared:
(1) excavates 20 or more acres of land to
a mean depth often feet or more during
its existence. The local government is the
A-17

responsible governmental unit; or
(2) is designed to store or is capable of
storing more than 7,500 tons of silica
sand or has an annual throughput of
more than 200,000 tons of silica sand
and is not required to receive a permit
from the Pollution Control Agency. The
Pollution Control Agency is the
responsible governmental unit.
(b) In addition to the contents required
under statute and rule, an environmental
assessment worksheet completed according
to this section must include:
(1) a hydrogeologic investigation
assessing potential groundwater and
surface water effects and geologic
conditions that could create an
increased risk of potentially significant
effects on groundwater and surface
water;
(2) for a project with the potential to
require a groundwater appropriation
permit from the commissioner of
natural resources, an assessment of the
water resources available for
appropriation;
(3) an air quality impact assessment
that includes an assessment of the
potential effects from airborne
particulates and dust;
(4) a traffic impact analysis, including
documentation of existing
transportation systems, analysis of the
potential effects of the project on
transportation, and mitigation
measures to eliminate or minimize
A-18

adverse impacts;
(5) an assessment of compatibility of the
project with other existing uses; and
(6) mitigation measures that could
eliminate or minimize any adverse
environmental effects for the project.
2013 14 art 4 s 92; 1Sp2015 c 4 art 4 s 121
24. The Board finds that it has the authority to
enact amendments to the WCZO. Zoning
authority is derived from the general police
powers possessed by the State. See Village of
Euclid v. Ambler Realty Company Co., 272 U.S.
365 (1926); Dean v. City of Winona, 843 N.W.2d
249 (Minn. Ct. App. 2014). Local units of
government (e.g. counties, cities, townships, etc.)
are not "constitutional" entities but rather
legislatively created entities. Zoning authority is
granted to counties within the State of
Minnesota by Minn. Stat. § 394.21, which
provides that counties may canyon planning and
zoning activities to promote public health, safety,
morals and general welfare. The Board finds that
the record of this matter demonstrates more
than adequately that the mining and processing
of industrial minerals, and particularly,
industrial silica sand, as "silica sand" and "silica
sand project" are defined in Minn. Stat. Section
116.99 Subd. 1 (d) and (e) affects the public
health, safety and general welfare of the citizens
of Winona County.
25. The Board finds that counties have only such
power and authority as has been granted to them
by the State Legislature, which is confined to the
limits of their borders. The Board finds that it
A-19

has the authority to enact zoning regulations to
govern land uses within the borders of Winona
County, outside of incorporated cities. The basis
for any land use decision must be related to the
specific impacts of activities within Winona
County, not on external activities or uses. The
Board finds that the decision it is making here is
related to the specific impact of industrial silica
sand mining and processing on Winona County
as it affects land use and the public health,
safety and general welfare of Winona County
citizens.
26. Minn. Stat. § 462.357 provides similar zoning
authority for cities, which may extend their
zoning authority to unincorporated areas within
two miles unless the county or town has adopted
zoning regulations. Townships are granted
concurrent authority with counties over zoning
outside of cities. Townships may implement
zoning regulations consistent with county
regulations, but may also be more restrictive.
Minn. Stat. § 394.33. In practice, this means
that counties have the authority to enact zoning
regulations for all areas of a county other than
incorporated cities. The townships included in
those unincorporated areas may elect to enact
more restrictive zoning regulations, but not be
less restrictive than the regulations enacted by a
county. Thus, any amendment to the WCZO
would impact the townships in unincorporated
areas, but incorporated cities would not be bound
by any amendments.
27. Minnesota Statutes Chapter 394.23 requires a
county to adopt both a comprehensive plan and a
A-20

zoning ordinance, which should work together.
The comprehensive plan should serve as the
policy basis for the regulations contained in the
zoning ordinance, and the zoning ordinance
regulations should implement the comprehensive
plan. The Board adopted the Winona County
Comprehensive Plan in 2014 (hereinafter "2014
Comp Plan") which replaced the previous
Comprehensive Plan adopted in 2000. The 2014
Comp Plan was "intended to ... provide a
framework within which more specific
implementation strategies and programs may be
developed." 2014 Comp Plan, p. 5.
28. The general goals set by the Board and the
WCPC as part of the comprehensive plan update
process were to provide for:
a. An open process which encourages broadbased citizen participation and
intergovernmental cooperation which will
give meaning and suppo1t for the Plan;
b. The continued education of citizens on
County land use planning and regulation;
c. The promotion of civic involvement by all
citizens;
d. The protection of natural resources;
e. A sustainable and diverse economy which
recognizes the value of our citizens, the
Mississippi River, agriculture, natural
resources and natural beauty; and
f. The provision of affordable housing
throughout the County. 2014 Comp Plan
p.4.
29. The Board and the WCPC land use philosophy as
A-21

stated in the 2014 Comp Plan is to "recognize the
area's culture, customs and economy along with
its unique topography, natural resources and
environment, by guiding present and future
County development and decision-making. The
purpose of the Comprehensive Plan is to sustain
and enhance these features by guiding present
and future County development and decision
making through on-going effective, efficient and
dynamic planning." 2014 Comp Plan, p.4. The
Board finds that the unique topography and
subsurface of Winona County as part of the
driftless area of southeastern Minnesota is
characterized by the "unique karst conditions
and landforms of southeastern Mim1esota [and]
shall be considered unique when compared with
the flat scoured river terraces and uniform
hydrology of the Minnesota Valley." Minn. Stat.
Section 116C.99 subd. 2 (a). The Board finds that
Winona County topography and subsurface is
recognized by Minnesota Statutes as such and
that standards and criteria which the Board is
adopting here for land use zoning ordinance
purposes meets the requirements of the statute
that "the standards and criteria developed shall
reflect those differences in varying regions of the
state."
30. The 2014 Comp Plan describes goals, policies and
implementation strategies for general growth,
agricultural areas, urban expansion areas,
economic development, rural development, rural
industrial, rural residential development,
natural resource protection, source
water/wellhead protection, open space and
recreation, community facilities, transportation,
A-22

citizen involvement, and community health and
well-being.
31. The Board finds that no single goal, policy, or
strategy described in the 2014 Comp Plan will, or
should, govern what land use regulations should
be established. Rather, the 2014 Comp Plan
must be read as a whole. The various goals,
policies, and strategies in the 2014 Comp Plan
must be weighed by the Board when crafting
regulations and considering the adoption of the
Proposed Ordinance Amendment. As the 2014
Comp Plan states, it "is first and foremost a
statement of community values reflected in the
plan as goals. These goals are quite broad and
serve as a guide for decision-making, operating
and capital budgets, land use measures that
encourage or discourage growth, economic
development measures and steps for guiding
community growth and change. Understanding
the features of the County as well as past,
present and future trends are important
considerations for any comprehensive plan."
2014 Comp Plan at page 9.
32. The Board finds that the WCZO has the
following prescribed purposes for regulating the
use of land within Winona County (WCZO,
Chapter 2, Section 2.1):
a. Protecting the public health, safety, order,
convenience and general welfare.
b. Protecting and preserving agriculture.
c. Conserving the natural and scenic beauty
of the County.
d. Conserving natural resources in the
County such as streams, wetlands,
A-23

groundwater, recharge areas, bluffs, steep
slopes, woodlands and soils.
e. Minimizing pollution.
f. Protecting existing businesses and
facilities.
g. Conserving energy by allowing solar and
earth sheltered housing and wind
conversion structures.
h. Promoting orderly development and
redevelopment of the residential,
commercial, industrial, and public areas as
well as the preservation of agricultural
areas.
i. Providing for the compatibility of different
land uses and most appropriate use of land
throughout the County.
j. Encouraging cooperation among
governmental agencies to help achieve land
use goals.
k. Fair and efficient enforcement of land
development regulations including the
discontinuation of existing uses.
l. Promoting in a financially responsible
manner orderly development of the
community to insure adequate levels of
service in areas of public safety, utilities,
transportation and administration.
m. Ensuring the fair and non-discriminatory
administration of this Ordinance by
allowing administrative decisions rendered
by the Planning Department to be appealed
through a recognized process.
33. The Board finds that in particular, a restriction
on the mining and processing of industrial
mineral operations in Winona County as the
A-24

term "industrial mineral operations" is defined in
the Proposed Amendment Ordinance would meet
the purposes of the WCZO and particularly,
Chapter 2, Section 2.1 and those parts listed as
a., b., c., d., and e. above.
34. The WCZO allows for amendments to the official
controls. WCZO Chapter 5, Section 5.4.1(1)
provides that such amendments "shall not be
issued indiscriminately, but shall only be used as
a means to reflect changes in the goals and
policies of the County as reflected in the
Comprehensive Plan or changes in County
conditions." When the Board first took up the
issue of applications for silica sand mining
permits in 2011, the County's Comprehensive
Plan in effect at that time was one adopted by
the Board in the year 2000. The Board finds that
much has changed in Winona County since the
year 2000 regarding many issues, including the
dramatic increase in demand for silica sand for
industrial purposes and then a precipitous drop
in that demand. In addition, the Board finds
there is observable and documented negative
impacts of industrial silica sand mining and
processing to the local economies and natural
state in neighboring counties in Wisconsin across
the Mississippi River in Pepin, Buffalo and
Trempealeau Counties based on comments
received at the WCPC August 8, 2016 Public
Hearing from William Mavity, a former Pepin
County Board Supervisor, and Jon Schultz, a
Trempealeau County Board Supervisor, District
5 as to their respective counties' experience
with industrial silica sand mines and the effect
on the local economy, including declining land
A-25

values, community stress and social well-being,
and unfulfilled financial obligations and
promises of economic development boom for the
local communities from the silica sand mine
operations.
35. The decision of a county board to amend its
official controls such is considered here by Board
is a legislative decision of the Board as opposed
to a quasi-judicial decision of a county board
such as was the Board's review of the three
conditional use permit applications for silica
sand mining in 2011.
36. The Board finds that with respect to review of
legislative decisions, reviewing courts employ a
"rational basis test". To overturn a legislative
decision of a county board, the challenging party
must demonstrate that there is "no rational basis
related to promoting the public health, safety,
morals or general welfare" supporting the
decision. State, by Rochester Association of
Neighborhoods v. City of Rochester, 268 N. W. 2d
885 (Mim1. 1978). The rational basis test is the
most deferential standard of review applied to
local land use decisions. Legislative decisions
establish public policy. Unless the decision is
unconstitutional on its face or in application,
exceeds the scope of statutory authority, is
preempted or is procedurally defective, any
reason plausibly given to promote the public
interest is likely sufficient to support a
legislative decision and withstand legal
challenge.
37. The WCPC's role is in the review of proposed
A-26

amendments or changes to the WCZO is an
advisory one to the Board. When a proposed
amendment to the WCZO is referred by the
Board to the WCPC for review and
recommendation, the WCPC can only return to
the Board with one of three recommendations: to
recommend approval; disapproval; or modified
approval of the proposed amendment. WCZO
Chapter 5, Section 5.4.3 (4). The WCPC
recommended to the Board a modified version of
the Proposed Ordinance Amendment sent to it by
the Board, which is referred to in this document
as the WCPC's Recommendation.
38. As found previously above, the Board's decision
on a proposed amendment to the WCZO is a
legislative decision, not a quasi-judicial one. To
be supportable under the law in this context, the
Board's decision must be reasonably related to
the goals, policies and strategies of the 2014
Comp Plan, the purpose of the WCZO, and has a
rational basis related to promoting the health,
safety, morals, and general welfare within
Winona County.
39. Winona County has the delegated authority to
regulate silica sand mining and processing
operations under its jurisdiction since these
operations affect land use.1 Under that statute,
counties may create zoning ordinances that
identify land uses that should be "encouraged,
regulated, or prohibited."2 Zoning must occur

1
2

Minn. Stat. § 394.21 (2015).
§ 394.25, subd. 2.

A-27

through a comprehensive plan.3 A county's
zoning authority is not unlimited, and remains
subject to statutory and constitutional
limitations. It is therefore important to
sustaining the legislative decision of the Board
that a proposed amendment be tied to the values
of the County espoused in the Winona County
Comprehensive Plan and the current WCZO.
40. The Board has examined the various amendment
proposals offered for the Board's consideration in
this matter, including the LSP proposed
amendment, the WCPC's Recommendation, and
the Proposed Ordinance Amendment. The Board
finds that adoption and enactment of the
Proposed Ordinance Amendment with some
additions to the language for clarification and
added references to Minnesota law is consistent
with the values of the County espoused in the
2014 Comp Plan and the WCZO.
41. The Board finds that the LSP proposed
amendment does not directly establish the
necessary nexus between the values espoused in
the 2014 Comp Plan and purpose of the WCZO,
i.e. the rational basis, for restricting land use.
42. The main parts of the LSP proposed amendment
are the following:
a. The proposed amendment would add the
words "Frac Sand" and "Frac Sand
Operations" to the definitions section of
Chapter 4: Rules and Definitions of the
WCZO. Currently, the WCZO has no
3

§ 394.23.

A-28

definition for "silica sand" or "frac sand".
b. The proposed amendment would also
add a section 10.11 to the WCZO to
specifically prohibit in all zoning
districts "frac sand operations".
43. The Board finds that an internet search of the
phrase "frac sand" will result in multiple
references to that phrase, but for the purposes of
the Board's consideration of the LSP proposal, it
used the Minnesota Department of Natural
Resources (DNR's) definition of "frac sand". The
DNR website page on "silica sand" describes
silica sand as consisting "of well-rounded sand
composed of almost pure quartz grains. Quartz,
or silicon dioxide (SiO2), is the most common
mineral found on the Earth's surface and is in
rocks like granite, gneiss, and sandstone. The
value of silica sand can be significantly higher
than sand and gravel used in the construction
industry. Silica sand is processed into frac sand,
a product used by the oil and gas industry."
[Emphasis added]. See http://www.dnr.state.
mn.us/silicasand/index.html.
44. The DNR website on silica sand states that "over
the past decade, a sharp increase in demand for
silica sand corresponded with a rapid expansion
of shale oil and gas development. An extraction
method called hydraulic fracturing is used to
access oil and gas from shale and limestone
bedrock which can require approximately 10,000
tons of frac sand per well" See http://www.dm.
state.mn.us/silicasand/index.html.
45. The LSP proposed amendment would prohibit
A-29

the use of "frac sand operations" in all zoning
districts in the county; meaning it would prohibit
extraction of silica sand, that when processed, is
suitable for use as a proppant for the exploration,
drilling, production, and recovery of oil and gas
and that is intended to be sold or used as such
according to the LSP proposed language.
46. The LSP proposed amendment also lacks any
language in the amendment provisions that
describes the purpose of the restrictions as they
relate to the purposes of the 2014 Comp Plan and
the WCZO. For these reasons, the Board finds
the LSP proposed amendment will not be
adopted by the Board.
47. The Board also examined the WCPC's
Recommendation which would limit the number
of new mining sites for the excavation or mining
of industrial minerals to six sites. It would also
limit the acreage size of new or proposed
expanded projects for the excavation or mining of
industrial minerals to not exceed 40 acres,
without the reclamation of previously mined
acreage. Like the Proposed Ordinance
Amendment, the WCPC's Recommendation
borrows language from the Florence Township
(in Goodhue County Minnesota) Zoning
Ordinance regarding the 6 mining site limit and
the 40 acre size limit. The Board finds that there
is nothing from the record of the WCPC's
hearings to support the 6 mining site limit and
the 40 acre size limit other than citing that the
Florence Township ordinance imposed these
limits. However, the Board finds that the
Florence Township ordinance's 6 mines and 40
A-30

acre limits were applied to construction mine
projects, not industrial mineral mine projects.
Therefore, those number and size restrictions are
not relevant to, nor do they support, using the
same restrictions for industrial mineral mine
projects were the Board to adopt the WCPC's
Recommendation.
48. The Board, however, does find that the Florence
Township Ordinance is a good example to follow
and is one from a local government jurisdiction
that was also faced with the surge in demand for
industrial silica sand in the early part of the
2010 decade forward. Florence Township adopted
a zoning ordinance that restricts excavation and
mining of silica sand for industrial uses by
setting out the purpose of doing so by tying it to
their comprehensive land use plan and by using
clear and concise definitions that distinguish
construction minerals from industrial minerals,
the latter of which includes silica sand. As part
of the County Attorney's viability analysis of the
LSP proposed amendment which was directed by
the Board, other jurisdictions' ordinances
including the Florence Township Zoning
Ordinance was reviewed. The Florence Township
Ordinance declares that "industrial minerals
mining land use operations are larger-scaled
industrial, consume more appropriated water,
require more concentrated heavy truck hauling
traffic to single destinations, and embrace other
differences than the mining of construction
materials." The ordinance goes on to state that
the "Minnesota Department of Natural
Resources recognizes this mining land use
process difference in its different rules for the
A-31

leasing of state-owned lands for mining
industrials minerals and construction minerals."
Florence Township Zoning Ordinance.
49. The Board finds that the Proposed Ordinance
Amendment which contains language borrowed
from the Florence Township Zoning Ordinance
and modified to make it Winona County specific
com1ects the purpose of the ordinance to the
Winona County's Comprehensive Plan and the
WCZO as it relates to supporting the restriction
on the mining and processing of silica sand in
Winona County is a legally viable ordinance
amendment.
50. The Proposed Ordinance Amendment establishes
a clear rational basis for the amendment related
to the values espoused in the 2014 Comp Plan
and the purpose of the WCZO by:
a. Describing the purpose of the ordinance
provisions as they relate to the 2014 Comp
Plan, and;
b. Describing the reasons for restricting land
use as to mining of "industrial minerals"
and "processing of industrial minerals" in
Winona County as those terms are defined
in the Proposed Ordinance Amendment
with the addition of the statutory
definitions of "silica sand" and "silica sand
projects" from Minnesota Statutes 116C99,
subd. 1 (d) and (e), and;
c. Providing clear distinctions of restrictions
on certain mineral excavation, extraction,
and land alteration through the use of the
definitions of "Construction Minerals" as
A-32

compared to "Industrial Minerals".
d. Adding language to clarify that the
Proposed Ordinance Amendment does not
intend to regulate interstate commerce
(including rail, barge, and truck traffic
hauling silica sand) or intercounty rail and
truck traffic hauling silica sand excavated
from other states or counties outside of
Winona County that is headed for the
terminal port in the City of Winona or
elsewhere, or processing of silica sand in
municipalities not under the zoning
authority of the County is also
appropriate.
For the complete June 3, 2016 County Attorney
Legal Viability Analysis, which contains the
Florence Township Zoning Ordinance and the
original Proposed Ordinance Amendment, go to
the following link: http://www.co. winona.mn.
us/sites/winonacounty.new.rschooltoday.com/files
/files/Private User/AISE N/Legal%20Analysis
%20of0/o20Viability%20of0/o20Proposed
%20Amendment- June%203%202016.pdf
51. Specifically, the listed purposes of the WCZO that
are of particular relevance to the Board's
consideration of the Proposed Ordinance
Amendment are the following:
WCZO Chapter 2: Intent and Purpose
2.1 Purpose. This is an ordinance
regulating the use of land within
Winona County [... ] for the purpose of:
1. Protecting the public health, safety,

A-33

2.
3.
4.

5.

order, convenience and general
welfare.
Protecting and preserving
agriculture.
Conserving the natural and scenic
beauty of the County.
Conserving natural resources in the
County such as streams, wetlands,
groundwater, recharge areas, bluffs,
steep slopes. Woodlands and soils,
Minimizing pollution.
And

2.2 Relation to Land Use Plan
52. The Winona County Zoning Ordinance
recognizes Winona County's Comprehensive
Land Use Plan as the policy to regulate land use
and development in accordance with the policies
and purpose herein set forth. WCZO Chapter 2,
Sections 2.1 and 2.2.
53. The 2014 Comp Plan sets out the following
provisions that the Board finds are particularly
relevant to how the Proposed Ordinance
Amendment is related to the purpose of both the
2014 Comp Plan and the WCZO. The Board
makes the general findings that each of these
community values are served by adopting the
Proposed Ordinance Amendment, and provides
specific findings as are noted in italics below:
The value statement regarding community
values as to:
Agriculture: Winona County recognizes the
A-34

cultural and economic importance of agriculture to
the community. Local decisions should reflect the
importance of maintaining agricultural practices that
are recognized as approved best management
practices and are conducted in accordance with
federal and state laws. Furthermore, local decisions
should support, maintain and sustain the vitality of
family farms, promoting policies that support Winona
County's strong tradition of locally owned agricultural
operations and the administration of best
management practices that consider the conservation
of soil, water quality, economic viability, innovative
practices, the promotion of local food systems and the
stewardship of the land and its resources to retain the
viability of agriculture for future generations. Page 12
of 2014 Comp Plan.
Resources: Winona County values the
importance of sound environmental practices that
promote the efficient use of all natural resources.
The use of resources should promote responsible
stewardship through sound conservation practices,
consideration of threats proven by peer review and
scientific research, the use of sensible and
economically reasonable solutions, and concern for the
aesthetics of the County. Page 12 of 2014 Comp Plan.
Sustainability: Winona County promotes a
sustainable community through the encouragement
of sustainable development. A sustainable
community uses its resources to meet current needs
while ensuring that adequate resources are available
for future generations. A sustainable community
seeks a better quality of life for all its residents while
maintain nature's ability to function over time by
minimizing waste, preventing pollution, promoting
A-35

efficiency and developing local resources to revitalize
the local economy. Page 13 of 2014 Comp Plan.
Policies: Regulate exploration and drilling
operations to minimize pollution problems and the
impact on agricultural areas and environmentally
sensitive areas. Page 15 and 33 of 2014 Comp Plan.
Source Water/Wellhead Protection:
Maintain, protect and improve the quality of
groundwater resources particularly the high-yielding
aquifers used for drinking water and connected to
surface hydrological features. Page 34 of 2014 Comp
Plan. 18.
The Board finds that the Proposed Ordinance
Amendment will protect groundwater resources in
Winona County's unique karst conditions and
landforms in -what the State has recognized through
Minn. Stat. Section 116C.99, Subd. 2 is unique -when
compared with the flat scoured river terraces and
uniform hydrology of the Minnesota Valley. The
Board also finds that according to the most recent
EQB's report on silica sand (dated March 20, 2013),
"the cumulative impacts to water quality (and
quantity) of multiple silica sand mines in close
proximity are not well understood. "EQB Report on
Silica Sand at page 29. See file:///C:/Users/atkls/
Downloads/23.%20March%20Final%20Silica%
20Sand%20report.pdf
The EQB report continues on to state that"
[d]epth to groundwater has not been widely
documented in southeastern Minnesota" and that
regarding "Long Term Effects in Karst Regions: More
information is needed on the long-term implications
A-36

for groundwater of mines in karst-prone regions of the
state. "Report at 61. For these reasons, the Board
finds that the Proposed Ordinance Amendment will
help to "maintain, protect and improve the quality of
groundwater resources in Winona County.
Industrial Sand Deposits: Discussion of
Winona County's geology would not be complete
without recognizing the growing interest in
industrial sands in the County. In recent years,
greater speculation relative to industrial sand
mining in Winona County has revolved around the
growing hydraulic fracturing process for oil and gas
wells. Winona County has three known high quality
sand types, attractive to these industries. They
include the St. Peter, Jordan and Wonewoc sand
formations. Page 60 of 2014 Comp Plan.
Natural Resource Protection: Winona
County is unique in that a substantial propo1iion of
its land can be classified as natural resource area.
Page 30 of 2014 Comp Plan.
Policies: Promote land management practices
by all levels of government that protect the natural
resources in the County, including streams, rivers,
wetlands, aquifers recharge areas, woodland and
forests, bluffs and agricultural areas. Page 31 of 2014
Comp Plan.
54. The 2014 Comp Plan recognizes and discusses
industrial sand mining in Winona County:
a. Regarding the goal to "ensure thorough review
and permitting in the extraction of mineral
resources which recognizes sound mining
management practices, mitigates adverse

A-37

public health, safety, welfare and
environmental impacts, recognizes and
accounts for the costs of impacts to road
infrastructure and administration, requires
careful consideration of traffic impacts, water
impacts, natural resource conservation,
encourages planning of future land utilization
and reclamation" at page 31 of 2014 Comp
Plan;
b. Regarding the policy to regulate exploration
and drilling operations in environmentally
sensitive areas at page 33 of the 2014 Comp
Plan;
c. Regarding recognition of Industrial Sand
Mining speculation on the rise in the County
due to high quality silica sand in surface and
subsurface locations, access to rail and port
facilities); at page 49 of the 2014 Comp Plan;
d. Regarding water impact, air quality,
transpo1iation safety and quality of life
impacts to neighbors); at page 51 of the 2014
Comp Plan; and,
e. Regarding recognition of Industrial Sand
Deposits in Winona County) at page 60 of the
2014 Comp Plan.
The Board made findings above regarding water
impact and water quality. Air quality and adverse
effects from particulates from silica sand mining and
processing were addressed by many persons both in
written and oral comment. Of note, Dr. Frank Bures,
a county resident and retired dermatologist from
Winona Health and Dr. Wayne Feyereisn, a county
resident and Mayo Medical Center physician (who
testified on his own behalf, not on Mayo's) spoke
about the adverse effects of silica particles to human
health. Dr. Feyereisn provided documented evidence
A-38

of the effects of silica particles that are so small they
pass into the lung tissue and can cause, among other
things, silicosis and lung cancer. The Board also
takes legislative policy notice of recently issued the U
S. Department of Labor's Occupational Safety and
Health Administration's (OSHA) standards as well
as the National Institute for Occupational Safety and
Health (NIOSH), "field studies [that] identified
overexposure to airborne silica as a health hazard to
workers. Large quantities of silica sand are used
during hydraulic fracturing. Sand is delivered via
truck and then loaded into sand movers, where it is
subsequently transferred via conveyer belt and
blended with other hydraulic fracturing fluids prior
to high pressure injection into the drilling hole.
Transporting, moving, and refilling silica sand into
and through sand movers, along transfer belts, and
into blender hoppers can release dusts containing
silica into the air. Workers can be exposed if they
breathe the dust into their lungs. NIOSH identified
seven primary sources of silica dust exposure during
hydraulic fracturing operations: • Dust ejected from
thief hatches (access ports) on top of the sand movers
during refilling operations while the machines are
running (hot loading). • Dust ejected and pulsed
through open side fill ports on the sand movers
during refilling operations. • Dust generated by onsite vehicle traffic. • Dust released from the transfer
belt under the sand movers. • Dust created as sand
drops into, or is agitated in, the blender hopper and
on transfer belts. • Dust released from operations of
transfer belts between the sand mover and the
blender; and • Dust released from the top of the end
of the sand transfer belt (dragon's tail) on sand
movers.

A-39

The Board notes that the sand referenced in the
NIOSH studies is the same sand that would be
mined, processed and transported from silica sand
mines in Winona County (and is currently mined and
processed in Wisconsin and in other parts of
Minnesota), thus exposing workers and residents in
Winona County to the same silica dust in the air that
workers in the oil and gas-fields are exposed to when
delivering that sand from sand movers to transfer
belt for use in the hydraulic fracturing process to
extract oil and gas.
See: https://www.osha.gov/silica/ and
https://www.osha.gov/dts/hazardale1st/hydraulic
frac hazard alert.pdf
55. As described previously above, amending the
zoning ordinance is a legislative, not quasijudicial, decision of the County Board. There is
great deference to a County Board's decision by
the courts as long as the record supports that the
decision is consistent with the County's
Comprehensive Plan and the purpose of the
County's Zoning Ordinance. The Proposed
Ordinance Amendment, with modifications as
attached hereto references the 2014 Comp Plan
and ties it and the general health, safety, and
welfare of the Winona County citizens to the
purpose of the ordinance restricting the mining
and processing of industrial minerals in Winona
County. It also makes a clear distinction between
land use restrictions on the excavation,
extraction, and land alteration for construction
mineral mining purposes versus industrial
mineral mining purposes. The amendment
would apply only to future industrial mineral
A-40

mining operation requests, not existing
permitted operations, such as the Nisbit mine in
Saratoga Township. Mining for construction and
agricultural bedding purposes would not be
affected by the amendment. The amendment
language as attached hereto is also modified to
clarify that the provisions will not affect
interstate commerce.
56. On the issue of "takings" that was raised by
individuals during the public hearing process,
the Board finds that whether a proposed
ordinance amendment, if adopted, would be a
federal and state constitutional violation of the
takings clause, can only be decided by a court, if
such a challenge to the action is put before it.
There is no set formula or firmly established test
to determine what constitutes a "taking", but
U.S. Supreme Court case law has identified
several factors that have particular significance
in consideration of the question. In reviewing a
takings claim, a court must review (1) the
economic impact of the regulation on the
person(s) suffering the loss, (2) the extent to
which the regulation interferes with distinct
investment backed expectations, and (3) the
character of the government action to assess
whether the complained of action effected a
taking of private prope1iy for public use. See
Penn Cent. Transp. Co. v. City of New York, 438
U. S. 104 at 124 (1978), 98 S. Ct. 2646 at 1026,
[other citations omitted for space considerations].
The Minnesota Supreme Court in the McShane
v. City of Faribault, 292 N. W. 2d 253 (1980) held
the "[t]he United States Supreme Court
A-41

recognized this distinction between "arbitration"
and "enterprise" regulations" in the Penn
Central case. McShane at 258. The Minnesota
Supreme Court defined enterprise regulations as
those governmental actions that are for the sole
benefit of a governmental enterprise, such as in
the McShane case, the Faribault Municipal
Airport. The government is involved in an
enterprise when it provides for or maintains
programs or facilities for which it must acquire
money, equipment, or real estate. In contrast,
when a government acts to resolve conflicts
among private interests by defining standards in
the community, it functions in an arbitration
capacity. Regulation that involves ordinances
design to effect a comprehensive plan are called
the "arbitration function" of government.
McShane at 258 - 259. In McShane, the
Minnesota Court also reiterated the U.S.
Supreme Court's Euclid decision as the one
establishing "that the right to use property as one
wishes is subject to and limited by the proper
exercise of the police power in the regulation of
land use, and such regulation does not
constitute a compensable taking unless it deprives
the property of all reasonable use." [emphasis
added J McShane at 257.
The Minnesota Supreme Court also
acknowledged in Zeman, a case decided after
McShane, that to determine an answer to a
taking question before it in that case, the court
had to "attempt the unenviable task of sorting
through the complex law of takings. Zeman v.
City of Minneapolis, 552 N. W. 2d 548 (1996) at
552at 552, quoting from Armstrong v. United
A-42

States, 364 U.S. 40, 49 (1960). In Zeman, the
Minnesota Court analyzed the question looking
at the Penn Central factors and held that "[a]
reviewing court must look to the nature of the
regulation with an eye on its purpose and the
probability of achieving that purpose with this
regulation. If the regulation is drawn to prevent
harm to the public, broadly defined, and seems
able to achieve this goal, then a taking has not
occurred." [emphasis added] Zeman at 554, citing
Keystone Bituminous Coal Ass'n v. DeBenedictis,
480 U. S. 470, 488-93 (1987). In Keystone, the
U.S. Supreme Court reiterated the long ago
recognized principle that "all property in this
country is held under the implied obligation that
the owner's use of it shall not be injurious to the
community," [emphasis added] Keystone at 491
quoting from Mugler v. Kansas, 123 U.S. 623
(1887), "and the Takings Clause did not
transform that principle to one that requires
compensation whenever the State asserts its
power to enforce it." [emphasis added] Keystone
at 491. See Mugler at 664.
57. The Board finds that on the issues raised
regarding jurisdiction and interstate commerce.
The U. S. Constitution provides that Congress
has the power to regulate commerce with foreign
Nations, and among the several States. U.S.
Constitution, Article I § 8, cl. 3. This clause is
more than an affirmative grant of authority to the
federal government, it also prohibits certain state
actions that interfere with interstate commerce.
Quill Corp. v. North Dakota By and Through
Heitkamp, 504 U.S. 298, 112 S.Ct. 1904, 119
L.Ed. 91 (1992). Most often this clause is invoked
A-43

when a state attempts to shield in-state
businesses from out-of-state competition- a
challenged law is virtually per se invalid when it
discriminates against interstate commerce and
only survives when there is a legitimate local
purpose that cannot be served by reasonable nondiscriminatory alternatives.
Although states ate not precluded from imposing
reasonable restraints and restrictions on
interstate commerce, and although states and
local jurisdictions have the authority to enact
zoning ordinances under the state's police power,
it has also been established that a state may not
exercise that police power where the necessary
effect would be to place a substantial burden on
interstate commerce. Transcontinental Gas Pipe
Line Corp. v. Hackensack Meadowlands
Development Commission, 464 F.2d 1358, 1362
(U.S. Court of Appeals, 3rd Dist., 1983). In Pike
v. Bruce Church, Inc. the U.S. Supreme Court
suggested a three-stage test: first, the state or
local legislation must serve a legitimate local
public interest; second, it must affect interstate
commerce only incidentally; and third, if the first
two stages are met, whether the legitimate local
purpose justifies the law's impact on interstate
commerce. Tobacco Road v. City of Novi, 490
F.Supp. 537 (U.S. District Court, E.D. Michigan,
Southern District, 1979), citing Pike v. Bruce
Church, 397 U.S. 137, 142, 90 S.Ct. 844, 847, 25
L.Ed.2d 164 (1970). Thus, making the record as
to the local purpose and findings of fact in
support of that purpose is crucial to
withstanding constitutional scrutiny.

A-44

The Board finds that from a practical point of
view, the Proposed Ordinance Amendment, as
attached hereto with modifications, has a
significant local purpose, but one that does not
affect commerce within the port of the City of
Winona since the County's jurisdiction regarding
zoning and planning does not extend to
municipalities within the County except in those
townships that have delegated their zoning
authority to the County. It has been modified to
clarify that the provisions do not apply to the
interstate and intercounty transport of industrial
minerals coming into Winona County by rail,
barge or truck, or other means of transport. The
Board finds that it has been written so that it
does not affect commerce within the port of the
City of Winona or any other municipality where
silica sand is transported either by river barge,
train or truck, or processing facilities therein,
since the County's jurisdiction regarding zoning
and planning does not extend to municipalities
within the County except in those townships that
have delegated their zoning authority to the
County.
58. Regarding the due process concerns raised by
individuals during the public hearing process,
the Board finds that the 14th Amendment to the
United States Constitution provides that no
State shall "deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws." The right to devote land
to any legitimate use is "property" within this
clause. State of Washington ex rel. Seattle Title
Trust Co. v. Roberge, 49 S.Ct. 50,278 U.S. 116,
A-45

73 L.Ed. 210 (1928). This clause protects against
the arbitrary restriction of lawful use of land.
Southern Co-op Development Fund v. Driggers,
527 F.Supp. 927, affirmed 696 F.2d 1347,
rehearing denied 703 F.2d. 582, certiorari denied
103 S.Ct. 3539, 463 U.S. 1208, 77 L.Ed.2d 1389
(1981).
In testing the constitutionality of a zoning
ordinance, the sole question is whether there is a
rational relationship between the ordinance and
the promotion of some aspect of a government
exercising its police power, a label which
describes the full range of legitimate public
interests. Stone v. Maitland, 446 F.2d 83 (Court
of Appeals, 5th Dist., 1971). Unless it is based
upon a suspect classification or unless it
infringes upon a fundamental right, zoning
legislation may be held unconstitutional only if it
is shown to bear no possible relationship to the
government's interest in securing health, safety,
morals or general welfare of the public and is,
therefore, manifestly unreasonable and
arbitrary. City of Highland Park v. Train, 519
F.2d 681 (Court of Appeals, 7th Dist., 1975). The
Board finds that the record suppo1is that the
ordinance is rationally related to protecting the
health, safety, and general welfare of Winona
County citizens.
CONCLUSIONS
1.

The Winona County Board of Commissioners has
jurisdiction over the subject matter of this
proceeding pursuant to Minnesota Statutes
Chapters 116D, 375, and 394, and the Winona
A-46

County Zoning Ordinance.
2.

Based on the findings made herein, the Winona
County Board of Commissioners concludes that
adopting and enacting the Proposed Ordinance
Amendment with modifications as noted herein
and as attached hereto amending the Winona
County Zoning Ordinance to restrict industrial
mineral mining and processing in Winona
County is reasonably related to the goals, policies
and strategies of the 2014 Winona County
Comprehensive Plan and the purpose of Winona
County Zoning Ordinance.

3. The Winona County Board of Commissioners
concludes that adoption and enactment of the
Proposed Ordinance Amendment with
modifications as noted herein and as attached
hereto complies with Minn. Stat. Section 116C.99
subd. 2(a) in that the amendment establishes
standards and criteria for mining, processing,
and transporting silica sand that are different
from other geographic areas of the state and
reflects the unique karst conditions and
landforms of southeastern Minnesota which exist
in Winona County.

A-47

ADOPTION OF AMENDMENT TO WINONA
COUNTY ZONING ORDINANCE
1. On voice vote, motion carried 3 (Commissioners
Kovecsi, Pomeroy, Olson) to 2 (Commissioners
Ward, Jacob) in favor of adopting and enacting the
attached Winona County Zoning Ordinance
Amendment Regarding the Mining and Processing of
Industrial Minerals in Winona County.
I certify that the above Ordinance was adopted by
the Board of Commissioners of the County of Winona
on November 22, 2016.
SIGNED:

WITNESSETH:

s/
Marie Kovecsi
Chair
Winona County Board
of Commissioners

s/
Kenneth Fritz
County Administrator

ll-22-16
Date

ll-22-16
Date

Drafted and Approved as to Form
On November 15, 2016 by
s/
Karin L. Sonneman
Winona County Attorney
Approved as to Execution on November 22, 2016 by
s/
Karin L. Sonneman
Winona County Attorney
A-48

